<html>
<title> - TRUCK WEIGHTS AND LENGTHS: ASSESSING THE IMPACT OF EXISTING LAWS AND REGULATIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       TRUCK WEIGHTS AND LENGTHS:
         ASSESSING THE IMPACT OF EXISTING LAWS AND REGULATIONS

=======================================================================

                               (110-151)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 9, 2008

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                   U.S. GOVERNMENT PRINTING OFFICE
43-580 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               FRANK A. LoBIONDO, New Jersey
EDDIE BERNICE JOHNSON, Texas         JERRY MORAN, Kansas
GENE TAYLOR, Mississippi             GARY G. MILLER, California
ELIJAH E. CUMMINGS, Maryland         ROBIN HAYES, North Carolina
ELLEN O. TAUSCHER, California        HENRY E. BROWN, Jr., South 
LEONARD L. BOSWELL, Iowa             Carolina
TIM HOLDEN, Pennsylvania             TIMOTHY V. JOHNSON, Illinois
BRIAN BAIRD, Washington              TODD RUSSELL PLATTS, Pennsylvania
RICK LARSEN, Washington              SAM GRAVES, Missouri
MICHAEL E. CAPUANO, Massachusetts    BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ARCURI, New York          JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee               ROBERT E. LATTA, Ohio
JERRY McNERNEY, California
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
VACANCY

                                  (ii)

?

                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
ELLEN O. TAUSCHER, California        THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          ROBIN HAYES, North Carolina
MICHAEL H. MICHAUD, Maine            HENRY E. BROWN, Jr., South 
BRIAN HIGGINS, New York              Carolina
GRACE F. NAPOLITANO, California      TIMOTHY V. JOHNSON, Illinois
MAZIE K. HIRONO, Hawaii              TODD RUSSELL PLATTS, Pennsylvania
JASON ALTMIRE, Pennsylvania          JOHN BOOZMAN, Arkansas
TIMOTHY J. WALZ, Minnesota           SHELLEY MOORE CAPITO, West 
HEATH SHULER, North Carolina         Virginia
MICHAEL A. ARCURI, New York          JIM GERLACH, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  MARIO DIAZ-BALART, Florida
JERRY McNERNEY, California           CHARLES W. DENT, Pennsylvania
BOB FILNER, California               TED POE, Texas
ELIJAH E. CUMMINGS, Maryland         DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              CHARLES W. BOUSTANY, Jr., 
DANIEL LIPINSKI, Illinois            Louisiana
STEVE COHEN, Tennessee               JEAN SCHMIDT, Ohio
ZACHARY T. SPACE, Ohio               CANDICE S. MILLER, Michigan
BRUCE L. BRALEY, Iowa, Vice Chair    THELMA D. DRAKE, Virginia
HARRY E. MITCHELL, Arizona           MARY FALLIN, Oklahoma
LAURA A. RICHARDSON, California      VERN BUCHANAN, Florida
ALBIO SIRES, New Jersey              ROBERT E. LATTA, Ohio
VACANCY                              JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Brezinsky, Vincent, Driver, International Brotherhood of 
  Teamsters Local 745, Dallas, TX................................    35
Carpenter, Tom, Director of Transportation, Global Supply Chain, 
  International Paper............................................    35
Cole, Hon. David, Commissioner, Maine Department of 
  Transportation.................................................     4
Donaldson, Gerald A., Senior Research Director, Advocates for 
  Highway and Auto Safety........................................    35
Farrell, Bill, Independent Driver, Owner-Operator Independent 
  Drivers Association............................................    35
Harrison, Captain John E., President, Commercial Vehicle Safety 
  Alliance.......................................................    35
Honefanger, Jeff G., Manager, Special Hauling Permits, Ohio 
  Department of Transportation, accompanied by Denny Silvio, 
  Weight Enforcement and Permits Administrator, Louisiana 
  Department of Transportation and Development...................     4
Opat, Mike, Commissioner, Hennepin County, Minnesota.............     4
Paniati, Jeffrey F., Executive Director, Federal Highway 
  Administration, Washington, D.C., accompanied by William Quade, 
  Administrator for Enforcement, Federal Motor Carrier Safety 
  Administration.................................................     4
Smid, Michael J., President and CEO, YRC North American 
  Transportation.................................................    35
Spradling, Mike, President, Oklahoma Farm Bureau, American Farm 
  Bureau.........................................................    35

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Altmire, Hon. Jason, of Pennsylvania.............................    77
Boren, Hon. Dan, of Oklahoma.....................................    78
Cohen, Hon. Steve, of Tennessee..................................    80
Collins, Hon. Susan M., Senator from the State of Maine..........    81
Cummings, Hon. Elijah E., of Maryland............................    83
McGovern, Hon. James P., of Massachusetts........................    87
Miller, Hon. Candice S., of Michigan.............................   108
Mitchell, Hon. Harry E., of Arizona..............................   114

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Brezinsky, Vincent...............................................   125
Carpenter, Tom...................................................   135
Cole, Hon. David A...............................................   141
Donaldson, Gerald A..............................................   145
Farrell, Bill....................................................   179
Harrison, Captain John E.........................................   186
Honefanger, Jeff G...............................................   211
Opat, Mike.......................................................   218
Paniati, Jeffrey F...............................................   224
Smid, Michael J..................................................   241
Spradling, Mike..................................................   257

                       SUBMISSIONS FOR THE RECORD

Allen, Hon. Thomas H., a Representative in Congress from the 
  State of Maine, a letter submitted from the Bangor Region 
  Chamber of Commerce............................................    67
Michaud, Hon. Michael H., a Representative in Congress from the 
  State of Maine, ``Study of Impacts Caused by Exempting 
  Currently Non-Exempt Maine Interstate Highways from Federal 
  Truck Weight Limits,'' Executive Summary, Maine Department of 
  Transportation.................................................    91
Opat, Mike, Commissioner, Hennepin County, Minnesota, response to 
  question from Rep. Oberstar....................................   223
Paniati, Jeffrey F., Executive Director, Federal Highway 
  Administration, Washington, D.C., accompanied by William Quade, 
  Associate Administrator for Enforcement, Federal Motor Carrier 
  Safety Administration:

  Responses to questions from the Subcommittee...................   229
  Responses to questions from the Subcommittee for Mr. Quade.....   235
Spradling, Mike, President, Oklahoma Farm Bureau, American Farm 
  Bureau, response to question from Rep. Oberstar................   263
Welch, Hon. Peter, At-Large Representative in Congress for the 
  State of Vermont, constituent letters..........................   115

                        ADDITIONS TO THE RECORD

Letter in support of testimony of Tom Carpenter, representing 
  International Paper and the Americans for Safe and Efficient 
  Transportation coalition, on behalf of the undersigned 
  companies and associations.....................................   266
Agricultural Transportation Efficiency Coalition, Steve Jarvis, 
  written statement..............................................   268
Kimberly Couto, written statement................................   270
Forest Resources Association Inc., ``Potential Impacts of 97,000-
  GVW on Logging Costs,'' Technical Release 06-R-18..............   272
Laredo Urban Transportation Study, Samuel Keith Selman, MPO 
  Director, responses to questions from the Subcommittee.........   274
Parents Against Tired Truckers, Daphne Izer, Founder, written 
  statement......................................................   278
Public Citizen, Joan Claybrook, President, written statement.....   280
Truck Safety Coalition, John Lannes, Executive Director, written 
  statement......................................................   283
Truck Safety Coalition, Florida Chapter, written statement.......   286

[GRAPHIC] [TIFF OMITTED] T3580.001

[GRAPHIC] [TIFF OMITTED] T3580.002

[GRAPHIC] [TIFF OMITTED] T3580.003

[GRAPHIC] [TIFF OMITTED] T3580.004

[GRAPHIC] [TIFF OMITTED] T3580.005

[GRAPHIC] [TIFF OMITTED] T3580.006

[GRAPHIC] [TIFF OMITTED] T3580.007

[GRAPHIC] [TIFF OMITTED] T3580.008

[GRAPHIC] [TIFF OMITTED] T3580.009

[GRAPHIC] [TIFF OMITTED] T3580.010

[GRAPHIC] [TIFF OMITTED] T3580.011



HEARING ON TRUCK WEIGHTS AND LENGTHS: ASSESSING THE IMPACTS OF EXISTING 
                          LAWS AND REGULATIONS

                              ----------                              


                        Wednesday, July 9, 2008

                   House of Representatives
    Committee on Transportation and Infrastructure,
                      Subcommittee on Highways and Transit,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Peter 
A. DeFazio [Chairman of the Subcommittee] presiding.
    Mr. DeFazio. The Subcommittee will come to order.
    We have before us today an issue which has, over the years, 
proved contentious, which is truck weights and lengths, and the 
theme of the hearing is ostensibly to assess the impacts of 
existing laws and regulations.
    I have read all the submitted testimony. I have to say that 
I don't think anybody can say that the current system makes 
much sense, and you can't really even call it a system in any 
meaningful way, with all of the so-called grandfathering in, 
the exemptions, the State interpretations and the lack of 
Federal enforcement, and so on and so forth.
    So what I am going to suggest to people today is that, if 
possible--I know it is hard for folks--I would invite you in 
any way to depart from your prepared testimony and sort of 
meaningfully give us a vision of what you think the direction 
should be from the Federal Government in dealing with this 
issue for the future, rather than regurgitating all of the past 
failures and all of the history and all that. We are quite 
familiar with that. But where do we go from here? How do we 
make sense out of this system?
    I will just give one little example, which is a little off 
the topic, but it does go to weights. Congress felt that it 
would be desirable that if truckers were to install APU 
systems, they could save fuel and improve air quality--they 
weigh 400 or 500 pounds--that they should be exempt from strict 
State weight regulations in those States which do enforce 
weight regulations. Some don't. And our Federal bureaucracy, in 
its wondrous way, has decided that the word ``shall'' was not 
mandatory because we didn't specifically preempt State laws. A 
number of States have chosen to ignore the fact that these APUs 
would be beneficial in terms of our energy crisis, our shipping 
costs, and our air quality, particularly the State of 
California, which is theoretically a leader in all that, and 
ding people for the extra weight of these units.
    So it seems like the Federal Government can't even deal 
with this in the most insignificant of ways, let alone the more 
major issues that relate to safety of our highways in terms of 
truck weights. So again, I think we are at the point here of 
admitting we have a total failure and we have got to begin to 
look toward a new future, and I invite you to give us that 
vision, rather than plodding through your prepared testimony; 
and anybody who can do that will get extra points.
    With that, I will turn to Mr. Duncan.
    Mr. Duncan. Well, thank you very much, Mr. Chairman. Thank 
you for calling this hearing. I want to thank the witnesses for 
coming today. There has been a steady growth, as all of us 
know, in the demand for freight transportation, and some of 
these statistics are pretty interesting.
    Over 20 billion tons of freight, valued at more than $14 
trillion, move through our transportation system each year, and 
by the year 2035 these numbers are expected to more than 
double. Federal regulations governing the size and weight of 
trucks on our major highways, of course, affect not only the 
efficiency of freight and passenger movement, but also 
interstate commerce, infrastructure construction and 
maintenance costs, and, of course, highway safety.
    The size limits that we are discussing today were first set 
in the Federal-Aid Highway Act of 1956 that initiated the 
construction of the interstate highway system. Over time, these 
limits have evolved to the current framework of laws and 
regulations governing the size and weight of trucks on the 
interstate highway system and the national network.
    These subjects can be very controversial. I remember 
several years ago, when Chairman Oberstar and I dealt with the 
issue of triple trailer trucks and the effort to expand those 
beyond the States where they are presently allowed. Of course, 
many other aspects are controversial as well, and we have a 
wide variety of witnesses today representing all aspects of 
this issue. So I look forward to hearing your testimony and I 
yield back the balance of my time.
    Mr. DeFazio. I thank the gentleman for his brief opening 
statement.
    Are there other opening statements? Mr. Chairman?
    Mr. Oberstar. Yes.
    Mr. DeFazio. Go ahead.
    Mr. Oberstar. I appreciate your calling this hearing and 
the comments that you have made, Mr. Chairman, and those of Mr. 
Duncan.
    Trucking clearly is a cornerstone of the Nation's economy. 
If you have got something, it came by a truck, probably first 
by a railroad and then a truck or first a truck, then a 
railroad and then a truck. In the day of just-in-time 
deliveries, our highways have become rolling inventory 
warehouses and commercial truck traffic has doubled over the 
past 20 years, and will continue to grow. The Department of 
Transportation estimates in the range of 3 percent annual 
growth over the next dozen years.
    So the issue of truck weights and sizes becomes a national 
issue, and, yet, it has been a patchwork quilt across the 
Country of exceptions and exemptions by various States. In 
fact, there were some 4.6 million special exemptions given over 
the last year, oversize and overweight permits, and that number 
has increased substantially over the past two decades.
    On the one hand, we have this increase in exemptions for 
oversize and overweight, and yet, the fees for those permits 
have changed little in that period of time. In fact, the fees 
are not related at all to the effect of the weight and number 
of trucks and their pressure on the road surface to 
deterioration of our highway and bridge infrastructure. So 
States set fees to cover the cost of administering the permit 
program, not to cover the cost of the effect of the overweight/
oversize trucks on the road surface or the bridges.
    The second thing, in addition to those weight factors, is 
truck-car crashes. We have been averaging 5,000 fatalities a 
year in truck-car crashes, and that has been roughly the same 
since 1984, when there were 4,908 fatalities between heavy 
trucks and automobiles. And in the overwhelming preponderance 
of those cases, the inhabitant of car is the loser. Fifty 
percent of passenger car occupants were injured 20 years ago; 
54 percent of the accidents happened on the Federal highway 
system; and only 920 of the fatalities were the truck driver or 
the occupant of the truck. We have to do a whole lot better job 
than we have been doing for safety on the Nation's roadways 
with large trucks.
    Longer and heavier trucks require longer stopping 
distances, significantly longer. They are far more difficult to 
maneuver safely in exit and merge lanes, because those off 
ramps built in the 1950s or 1960s were not made for those 
longer trucks. They are less stable; they are harder to handle 
than shorter vehicles; they have difficulty staying in the flow 
of traffic on steep grades. Add to that stress and driver 
fatigue and high rollover rate. Those are issues that we have 
to consider, the safety element of longer combination vehicles.
    We are not alone. The European community has dealt with the 
highway fatality issue as well. Five years ago they had 53,000 
fatalities for 500 million people in the 27 member communities. 
Last year they had cut that down to 43,000 fatalities, and that 
is roughly where we are in the United States. If they can do 
that in the European community in a five year period, we ought 
to be able to do as well in the United States, and we are going 
to put a much greater effort toward that purpose in this 
Committee in the next authorization bill.
    So putting in size and weight changes incrementally, State-
by-State, permit-by-permit is not a national solution, is not a 
national approach. We have to study carefully and evaluate the 
large portfolio we have of truck safety issues before we go any 
further with doubles and triples and other longer combination 
vehicles, and heavier weights that are exacting a toll on the 
Nation's roadways and bridges.
    I look forward to hearing the recommendations and the 
testimony of this panel and the subsequent witnesses.
    I did attempt to evaluate this with Mr. Michaud last year 
and the year before. We tried to craft a pilot program for two 
States that would include a rigorous analysis of safety and 
infrastructure effects, but using the Federal Highway 
Administration formula of paying for this pilot program, but 
ultimately both States backed out of paying, making a 
contribution to the cost of running the pilot program, so I 
abandoned the idea. We will see whether there are any other 
fruitful ideas forthcoming from this hearing.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Thank you.
    With that, we will proceed to the panel. We have 11 
witnesses today, so we want to move along.
    First would be Mr. Jeffrey Paniati, Executive Director, 
Federal Highway Administration.

 TESTIMONY OF JEFFREY F. PANIATI, EXECUTIVE DIRECTOR, FEDERAL 
   HIGHWAY ADMINISTRATION, WASHINGTON, D.C.; ACCOMPANIED BY 
WILLIAM QUADE, ASSOCIATE ADMINISTRATOR FOR ENFORCEMENT, FEDERAL 
MOTOR CARRIER SAFETY ADMINISTRATION; THE HONORABLE DAVID COLE, 
   COMMISSIONER, MAINE DEPARTMENT OF TRANSPORTATION; JEFF G. 
 HONEFANGER, MANAGER, SPECIAL HAULING PERMITS, OHIO DEPARTMENT 
    OF TRANSPORTATION, ACCOMPANIED BY DENNY SILVIO, WEIGHT 
ENFORCEMENT AND PERMITS ADMINISTRATOR, LOUISIANA DEPARTMENT OF 
 TRANSPORTATION AND DEVELOPMENT; AND MIKE OPAT, COMMISSIONER, 
                   HENNEPIN COUNTY, MINNESOTA

    Mr. Paniati. Mr. Chairman and Members, thank you for the 
opportunity to testify on Federal regulation of truck size and 
weight. With me today is Bill Quade. Bill is the Federal Motor 
Carrier Safety Administration's Associate Administrator for 
Enforcement and Program Delivery.
    We have a proud history at the Federal Highway 
Administration, and our most important chapter began with 
President Eisenhower and his vision for the Interstate Highway 
System that connects America to move people and goods across 
the Country in a safe, efficient, and reliable way. Although 
construction of the interstate system has been completed, our 
mission of ensuring safe, efficient, and reliable highways 
continues.
    We must do all we can to improve safety for all highway 
users, support economic growth by promoting efficient freight 
movement, and ensure preservation of our existing 
infrastructure. Monitoring and enforcing Federal truck size and 
weight requirements are key to achieving these goals.
    Federal involvement in truck size and weight dates back to 
the establishment of the Interstate System in 1956. Although 
truck size and weight limits have evolved over the years, the 
1956 Act included a grandfather clause allowing States to 
retain any higher axle and gross vehicle weight limits that 
they had already enacted, as well as their authority to 
continue issuing overweight permits under the conditions in 
effect in that year.
    The current length and width restrictions apply on the 
National Network, which includes the Interstate System and 
other roadways designated by the States and incorporated in 
Federal regulation. Weight restrictions apply on the Interstate 
System. Beyond the Interstate System, States may set their own 
weight limits.
    FHWA Division staff work closely with State transportation 
and enforcement officials to facilitate and ensure compliance 
with truck size and weight requirements. States provide FHWA 
annual certifications that include enforcement plans and 
updated information on size and weight enforcement activities. 
States face a 10 percent reduction of certain Federal-aid funds 
if they fail to certify or adequately enforce all Federal size 
and weight requirements.
    If a State enacts laws or regulations establishing weight 
limits for trucks that violate Federal weight standards, the 
State is subject to the loss of its entire National Highway 
System apportionment. A State that violates Federal size 
requirements is subject to a civil action for injunctive relief 
in Federal district court.
    FHWA also has underway a number of research and program 
activities intended to promote the smooth, safe, and secure 
flow of freight vital to our Nation's economy and our global 
competitiveness. Our current estimates indicate that less than 
1 percent of trucks weighed are issued citations for being 
illegally overweight. This means that too many trucks at legal 
weight are having their trips needlessly interrupted.
    FHWA is working with FMCSA on roadside automated 
enforcement tools that will support the weighing and inspecting 
of trucks at highway speeds, which can improve productivity 
without compromising safety or infrastructure preservation.
    As part of the Department's Congestion Initiative, we are 
looking at the possibility of improving freight movement 
through truck-only lanes and engaging shippers, the trucking 
industry, and safety advocates in discussions of this option. 
Additionally, the Corridors of the Future Program is giving us 
the chance to develop multi-State, corridor-wide strategies for 
congestion relief. One such corridor is I-70, where the 
participants will be studying the feasibility of dedicated 
truck lanes.
    State permitting practices vary from State to State due to 
grandfather clauses, non-divisible load determinations, and 
special statutory exemptions. These variations sometimes 
present a challenge to the transport of oversize loads across 
State boundaries, as is the case for trucks carrying 
manufactured housing in several Northeastern States. FHWA has 
facilitated discussions with industry executives and State 
permit officials on coordinated movement of oversize loads in 
this region and we are moving toward a pilot for harmonized 
permitting activities in 2009. We are also working closely with 
the regional organizations of AASHTO on this issue to 
streamline the permitting process and interoperability between 
States.
    We look forward to continued work with you, the public, and 
the stakeholders to improve the safety, security, and 
productivity and mobility in the Nation's transportation 
system. Thank you again for the opportunity to testify. We 
would be pleased to answer any questions you may have.
    Mr. DeFazio. Thank you.
    With that, we go to our next witness, the Honorable David 
Cole, Commissioner, Maine Department of Transportation. Mr. 
Cole.
    Mr. Cole. Chairman DeFazio, Member Duncan, Members of the 
Committee, I am David Cole, Commissioner of the Maine 
Department of Transportation, and I want to thank you for this 
invitation to speak today as well.
    The State of Maine has just under 23,000 miles of public 
roads. In Maine, 6-axle combination vehicles are allowed to 
have a gross vehicle weight of up to 100,000 pounds on all 
roads except for 250 miles of non-exempt portions of the 
interstate system, which, of course, are subject to Federal 
weight restrictions. As a result, heavier trucks must divert 
from interstate highways to State roads that pass through a 
number of Maine towns, villages, by playgrounds and schools, 
making our communities less safe and impacting our secondary 
road system.
    Now, we have two possible options for mitigating these 
impacts: either Congressional action to allow Maine to raise 
the weight limits or, conversely, reducing truck weight limits 
on State jurisdiction roads to 80,000 pounds.
    In 2002, MaineDOT contracted with Wilbur Smith Associates 
to examine these impacts of a Federal weight exemption on 
currently non-exempt portions of our interstate system, looking 
at safety, our economy, and impacts to infrastructure.
    In terms of safety, according to the Wilbur Smith study, a 
Federal exemption would reduce Maine's crash rate by more than 
three crashes a year by shifting heavy traffic to the safer 
interstate roadways. The study noted that crash rate experience 
of 5-and 6-axle combination trucks was consistent with national 
findings that show that rural interstates are three to four 
times safer than rural secondary roads. A Federal truck weight 
exemption would remove an estimated 7.8 million loaded truck 
miles of travel from Maine's roadways, and if you reduce State 
weight limits to 80,000 pounds and rolled them back, it would 
require 38 percent more trucks to move the same amount of goods 
as 100,000 pound vehicles due to percentage less of payload 
carried by 80,000 pound vehicles.
    So in terms of our economy, Maine businesses are at a 
distinct competitive disadvantage with businesses in 
surrounding jurisdictions due to the current lower truck weight 
limits on Maine's interstate compared to surrounding provinces 
and States. A Federal truck weight exemption would enhance the 
trade corridor between Canada and the Northeast United States 
by eliminating the 200-mile truck gap that exists under current 
laws. The Federal truck weight exemption would lower 
transportation costs by decreasing truck miles traveled per 
volume of goods, reducing fuel usage and reducing dependence on 
foreign oil.
    Governor Baldacci and the Members of Maine's congressional 
delegation have been working with Maine's forest products 
industry, which is the backbone of our rural economy, to help 
soften the blow they are experiencing from escalating fuel 
costs. This is one common sense initiative that will help 
provide much needed relief to this industry and others.
    In terms of our infrastructure, MaineDOT study findings 
indicate that an interstate truck weight exemption would save 
the State between $1.3 million and $2 million annually in 
bridge and pavement costs. A companion study of the currently 
exempted Maine Turnpike estimated that the Federal truck weight 
exemption on that highway, which allows the higher limits, 
saves the State currently between $2.1 million and $3.2 million 
annually in pavement and bridge costs. And yes, lowering the 
State truck limit to 80,000 pounds would reduce the per vehicle 
infrastructure impacts; however, this is more than offset when 
you factor in payload, as additional vehicles would be needed, 
which would impact our roadways.
    In terms of the environment, the Federal truck weight 
exemption would also reduce Maine and the Nation's dependence 
on foreign oil by eliminating the need to divert to less direct 
routes and more congested routes, and by increasing payload 
capacities, thereby reducing the number of truck miles 
traveled. Fewer trucks means less emissions and less 
congestion.
    In conclusion, a Federal truck weight exemption for the 
remainder of Maine's interstate system will significantly 
improve overall roadway safety and economic competitiveness for 
Maine's businesses, while reducing fuel and infrastructure 
costs and environmental impacts.
    Now, Mr. Chair, I appreciate your comments about offering a 
vision for the future. That is our Maine story. We are open to 
solutions, but we have a situation here where every day I have 
Maine people looking me in the eye and looking at the 
interstate and saying why can't the trucks travel on the 
interstate. It was built for this. Why? And we are open as a 
State to working with our counterparts and working with you and 
our delegation to find ways to improve the entire system.
    Mr. DeFazio. Okay, thank you.
    With that, we turn to Mr. Jeff Honefanger, Manager, Special 
Hauling Permits, Ohio Department of Transportation.
    Mr. Honefanger. Mr. Chairman, Members of the Committee, 
good morning. I am Jeff Honefanger, Manager of the Ohio 
Department of Transportation Special Hauling Permit Section. I 
am appearing on behalf of AASHTO, the American Association of 
State Highway and Transportation Officials, where I am the Vice 
Chair of the AASHTO Subcommittee on Highway Transport, which is 
responsible for truck size and weight issues for AASHTO.
    With me today is Mr. Denny Silvio of the Louisiana 
Department of Transportation and Development. Mr. Silvio has 
over 20 years of work experience related to size and weight 
permitting and enforcement, currently serves as the Chair of 
the Oversize/Overweight Permit Task Force for the Subcommittee 
on Highway Transport.
    Thank you for the invitation to speak and answer questions 
today.
    The importance of effective truck enforcement and truck 
size and weight laws and regulations is not widely recognized 
or understood. Traditionally, size and weight laws, regulations 
and enforcement focus principally on infrastructure protection 
and safety, which still remain preeminent concerns. However, 
the case for change includes additional factors, such as the 
need to move more freight more efficiently, conserving energy 
and reducing greenhouse gas emissions.
    Within this large and very complicated issue area, I have 
been asked to focus on the subject of oversize/overweight 
permits. This subject too is very complex and would require 
volumes to cover. In broad terms, oversize/overweight permits 
are special privileges which, when granted, waves the statutory 
dimension and weight limitations, allowing otherwise illegal 
vehicles to travel on public roadways.
    Permits are not revenue instruments or paper processes 
designed to casually circumvent dimension and weight laws; they 
are a means by which States manage the safe movement of 
exceptional loads.
    Generally, States have similar processes and practices for 
issuing permits. Information regarding the load, vehicle and 
desired routing are submitted, and, if the vehicle passes 
analysis, a permit may be issued.
    While States have similar processes and practices, 
differences exist with regard to what States may permit. Safety 
and infrastructure preservation are the primary rationale when 
evaluating the issuance of a permit and account for most of the 
differences. However, oversize/overweight permits also play an 
important role in the economic well-being of a State, a region, 
or even the Nation.
    Many States have established oversize/overweight permits 
for commodities or equipment that significantly contribute to a 
State's economic vitality. Striking a balance between 
infrastructure preservation and the creation or retention of 
jobs is a delicate endeavor.
    Fortunately, by and large, State permitting processes have 
and continue to effectively manage the movement of oversize/
overweight vehicles, thus safeguarding the public investment in 
highways and bridges.
    Still, there are challenges on the horizon that must be 
addressed if these programs are to continue to be effective. 
Some of these are the increasing number of permitted vehicles; 
larger and heavier loads; recovering the cost of the wear and 
tear caused by oversize/overweight permitted vehicles; 
competition in a global economy; effective and efficient 
enforcement of overweight/oversize vehicles.
    Despite these and other challenges, there is cause for 
optimism, as new technology and practices are being developed 
and implemented.
    AASHTO, in its recommendation to the National Surface 
Transportation Policy and Revenue Study Commission, stated that 
``States, in collaboration with the freight transportation 
industry and the Federal Government, should investigate the 
feasibility of regional adjustments in truck size and weight in 
particular corridors that demonstrate important economic 
benefits and meet safety, pavement/bridge impact and financing 
criteria.''
    AASHTO is actively engaged in this recommendation through 
cooperation with the U.S. Department of Transportation and the 
trucking industry as we address the issues affecting oversize/
overweight permits.
    Mr. Chairman, Members of the Committee, the importance of 
this subject under discussion today would be hard to 
exaggerate. Oversize/overweight permits impact safety, 
infrastructure protection, economic vitality, and even the 
other transportation modes. In today's challenging 
transportation environment, productivity, fuel costs, driver 
shortages, congestion, greenhouse gas emissions, pavement life, 
and bridge dependability are pressures that have to be 
considered when issuing an oversize/overweight permit. It will 
be a great benefit to all to take on these challenges 
vigorously and effectively. On behalf of the AASHTO member 
States, I promise that we will work with you in that effort.
    Thank you.
    Mr. DeFazio. Thank you for your testimony.
    We now turn to Mr. Mike Opat, Commissioner, Hennepin 
County, Minnesota.
    Mr. Opat. Good morning, Mr. Chairman and Members of the 
Committee. I am Commissioner Mike Opat from Hennepin County, 
Minnesota, the State's largest county, with more than 1.1 
million residents, 45 cities, and beautiful Minneapolis as our 
county seat. I was first elected in 1992 to the county board.
    I appreciate the opportunity to testify this morning on 
Federal limits to truck size and weight because the policy set 
by Congress will have a direct impact on Hennepin County, our 
1600 lane miles of roads, and the 141 bridges that we own and 
maintain.
    I will keep my remarks brief and will be happy to answer 
your questions today.
    Let me simply begin by stating that Hennepin County is 
opposed to any increases in the size or weight of commercial 
trucks operating on our highways. This past April, the Hennepin 
County Board unanimously passed a resolution opposing any 
increase in truck size or weight, and the Minneapolis City 
Council unanimously approved a similar measure just three weeks 
ago.
    As I am sure you understand, the safety of our roads and 
bridges is of particular concern to my constituents and me. 
Last August, 13 people were killed when the I-35W bridge 
collapsed in Minneapolis, it was a catastrophic failure of a 
major bridge and, having been on that bridge a few hours before 
it fell, it is truly miraculous that we only lost 13 people. 
The subsequent rush of bridge inspections led us to permanently 
close the Lowry Avenue Bridge, a 103-year-old Hennepin County 
bridge on a national highway system freight connector route. We 
must immediately replace that bridge and we are seeking Federal 
assistance to help do so. Lowry's four lanes over the 
Mississippi River added to the eight lanes lost by I-35W, has 
put a huge strain on the transportation system of the entire 
Twin Cities Metro area. Apart from Lowry, 10 of our bridges 
have a sufficiency rating below 50. We inspect 45 of our 
bridges annually for structural safety.
    I am aware that there are groups lobbying Congress to raise 
the weight limit on single trailers to 97,000 pounds and also 
allow double-and triple-trailer trucks in excess of 50 tons. I 
certainly do not fault commercial trucks for causing the bridge 
catastrophe in Minneapolis, but increasing allowable truck size 
and weights on Federal highways, without question, will make 
Hennepin County's roads and bridges more dangerous.
    Bigger, heavier trucks would also add to the cost of 
maintaining and upgrading our roads and bridges. Hennepin 
County highways are often indistinguishable from State and 
Federal roads in terms of size and importance on our 
transportation grids, which you can see from this map. The 
limits that Congress will set for trucks on Federal highways 
will impact Hennepin County roads in a major way because the 
majority of exits off Federal highways are onto county roads.
    Let me give you a bit more detail on cost to Hennepin 
County, since I know many of you at one time were elected to 
public office for a city or county.
    Hennepin County owns and maintains $3.5 billion in highway 
and bridge assets. Our five-year capital program will invest 
nearly $250 million in highway and bridge construction 
projects. We will spend more than $119 million this year alone 
to inspect, maintain, and operate our transportation network. 
Increasingly, as the next graph shows, we must rely on property 
tax, our primary form of revenue, to effectively subsidize a 
highway system that our constituents already pay for through 
gas and vehicle sales taxes and registration fees.
    Federal rate restrictions have never been higher than 
today's limit of 80,000 pounds. An increase in truck weights 
and sizes on Federal highways will directly trickle down to 
county roads, which were built at a time when there were fewer 
trucks and lighter trucks. Raising the cap on truck size and 
weight would also be counterproductive. While every bridge in 
Hennepin County is safe, when we discover structural problems 
on a bridge, our first step is to place a weight limit on its 
traffic.
    This is no time to accelerate the deterioration of county 
and municipal roads and bridges. Over the past five years, 
Hennepin County has absorbed more than $54 million in cuts in 
Federal aid. Almost all of our services and infrastructure 
obligations are required by law. We have done more with less 
repeatedly, but increasing demands on our highway system will 
require commensurate supply of tax revenue. It would hardly be 
fair for my constituents to pay with their personal safety and 
additional tax dollars for the incremental savings that may 
accrue from bigger and heavier commercial trucks.
    Mr. Chairman and Members, I realize that Congress, and 
especially this Committee, are placed in a difficult situation 
on this issue. With rising fuel prices, I appreciate the 
trucking industry's desire to cut costs wherever possible. But, 
from my view--and I think, Mr. Chairman, from the view of every 
Member in this Committee--the safety of the public has to come 
first. It is a lesson we in Minnesota were dramatically taught 
less than a year ago, so I urge the Committee to maintain 
existing weight and size limits for commercial trucks.
    I have included additional comments in my written 
testimony, Mr. Chairman, and I thank the Committee for the 
opportunity to testify on behalf of Hennepin County.
    In pursuit of extra credit points--I always like to do 
that, Mr. Chairman--I would just ask that, in my experience of 
responding to administering Federal and State laws, I would 
just ask that whatever system that the Committee arrives at and 
the Congress passes be clear and equitable, and not result in 
any unfunded mandates that come to our level. We do the best we 
can to interpret and, of course, the less interpretation needed 
the better. Thank you.
    Mr. DeFazio. Thank you.
    We now turn to the round of questions to this panel.
    To Mr. Paniati, you mentioned the severe sanctions that 
could be imposed on States if they fail to certify or enforce 
the weight limits, and I just want to hone in on that a little 
bit, because staff gave me some statistics here which I think 
are interesting. I am wondering what constitutes a certified 
program or what standards you apply, because there is an 
unbelievable disparity among the States in terms of how many 
trucks they weigh. For instance, Oregon weighed 2.4 million 
trucks; Nevada weighed 4,200 trucks; and Pennsylvania, which 
probably has more truck traffic than Oregon, weighed 36,000 
trucks.
    But somehow these are all certified and compliant programs, 
and I am wondering how do we know, I mean, if there are these 
extraordinary disparities among the States? They just file a 
paper plan with you and say, well, we have enforcement and we 
will do this, but one State that has, say, 100 million truck 
trips a year weighs a tiny, tiny, tiny fraction, and another 
State that has a lesser number does a substantial fraction, but 
these are both compliant certified programs? How does that 
work?
    Mr. Paniati. Mr. Chairman, one of the challenges that we 
have is the grandfather provisions that exist and the 
variations from State to State with regard to what is allowable 
within each State.
    Mr. DeFazio. I understand the confusion over the weights 
and the lengths and all that, but you are saying they have to 
have a federally certified program to show that they are 
meeting their own standards, whatever they might be, whether or 
not anybody can really understand them outside that State, but 
some States will sample one-tenth or one one-hundredth of one 
percent of the trucks and other States will sample maybe five 
percent of the trucks. How is it that a State that samples one 
one-hundredth of one percent is compliant and another State 
samples five percent, and then we can confidently say that only 
one percent are overweight?
    Mr. Paniati. What we are doing is looking at each 
individual State in and of itself because of the patchwork of 
laws and regulations that exist. We work with the State each 
year to get an annual plan which lays out the resources that 
they have in terms of weigh stations, both portable and fixed, 
and the personnel resources that they intend to use to enforce 
the laws. We then work with them on an annual certification, 
under which the governor certifies that the State is 
implementing all Federal laws and regulations, and actually 
look at, the number of permits granted, the number of 
violations, the number of weigh-ins, and track the trends from 
year to year within that State.
    We have found, and the Code of Federal Regulations 
indicates, that we are not able to really compare the States 
because of the variation that exists, and the most effective 
way to implement the size and weight requirements are to look 
within a State and the internal consistency from year to year 
within that State. So that is what we do. If any anomalies 
stand out, our Division Office staff with responsibility for 
this area work closely with the State----
    Mr. DeFazio. Okay, well, we are really not getting to an 
answer here. You know, the grandfather clause does not affect 
whether or not they have to follow the standards that are set 
within that State, and you are saying we have this wildly 
varying enforcement regime where some States barely look at any 
trucks and other States scrutinize a lot of the trucks, and 
that is all somehow compliant with the certification process. 
That suggests that the certification process needs a little 
more clarity and consistency. I understand the States aren't 
consistent on the weights, but the enforcement of whatever 
weights they have should be consistent, and I don't think we 
are there.
    Let's go to another issue. This could be done much better, 
and you, I believe, mentioned about needlessly interrupted 
trips and diversions, which would be with a weigh-in-motion, 
length-in-motion system. My State has one; it is called Green 
Light. In fact, the State actually provides transponders for 
free to the trucks, and it works very well. Truckers like it; 
the State likes it; and we can sample a large number of trucks 
without causing a lot of delay.
    But other States have privatized these systems and they are 
not compatible. In fact, the private vendors prohibit some of 
their people from participating and/or using the transponders 
from Green Light. Even though Green Light would allow it, they 
won't allow theirs to be used in Green Light.
    I mean, we do have an interstate system, right? And we do 
want to have some consistency. So what are you doing to mandate 
interoperability between private vendors, who are for-profit, 
and States, who aren't for-profit? Can you tell me how we are 
going to get there, because it seems to me we need a mandate.
    Mr. Paniati. I may defer to Mr. Quade on this. The systems 
you describe are part of the CVISN system that the Federal 
Motor Carrier Safety Administration has responsibility over. We 
are working together on the Smart Roadside Initiative, which 
works with individual States to encourage all States to employ 
technology as a way to get more enforcement and more weigh-ins 
of individual trucks.
    Mr. DeFazio. Right. But do we have Federal standards for 
interoperability? This is something I deal with over here with 
the TSA and the Homeland Security Committee and these for-
profits. Since this Administration is so obsessed with not 
having government regulate and do things that make sense and 
mandate things, and we want to put everything out to the 
private sector, so now we have States are going to the private 
sector, they are going to develop incompatible technology, so 
the truckers are going to have to have 47 units or 50 units 
flapping around inside the cab, trying to find a unit that 
works in that State because they have a private vendor that 
won't cooperate with the next door State private vendor, which 
won't cooperate with the next State, which has a State system.
    What are we doing about having a Federal interoperability 
mandate for these systems? I want to encourage them, but why 
aren't we having a Federal mandate? Are you developing one?
    Mr. Quade. Mr. Chairman, the Federal Motor Carrier Safety 
Administration does administer the CVISN program, the 
Commercial Vehicle Information Systems and Network, where we 
set architectural guidelines, operational concepts, and 
standards for States to deploy in implementing the CVISN 
capabilities. We are working toward having a national system 
that does that through the grant program that is provided by 
the----
    Mr. DeFazio. Do we have a mandate that says anybody who 
deploys this, it has to have either open source software or be 
interoperable with other systems? I mean, we need a Federal 
standard. You are not going to get there by having private 
sector companies competing in different States and saying, oh, 
if we can get the California market, we are not going to 
cooperate with anybody else; maybe we can get the national 
market. How are we going to get there without a Federal 
mandate?
    Mr. Quade. We do not currently have a Federal mandate, sir.
    Mr. DeFazio. Are you anticipating a Federal mandate? Do we 
need to make you have a Federal mandate? I mean, how are we 
going to get there? It isn't going to work for the contiguous 
States of the United States of America in an integrated 
national system. This can save fuel, it can save time, it can 
save money, it can increase safety; and all we have to do is 
say here is the standard. We don't care who provides it, it can 
be a private for-profit vendor, it can be a State, it can be 
anybody. But they all have to be able to intercommunicate. 
Doesn't that make sense?
    Mr. Quade. Sir, as I said, we have architectural guidelines 
and----
    Mr. DeFazio. Yes, but do the architectural guidelines 
require interoperability?
    Mr. Quade. I will have to get back to you on the answer to 
that question, sir.
    Mr. DeFazio. Okay. That is kind of a critical question, 
because my understanding is they don't and that we are 
developing incompatible systems.
    I live in the smaller city that didn't used to get along 
with the bigger city, and when they were first going to online 
data systems for their libraries, they went out of their way to 
make the systems incompatible because they didn't get along, 
and more enlightened people came along about 10 years later and 
said this is really stupid; we can enhance the holdings and the 
access to the public and interlibrary loans if we have 
compatible systems.
    Same thing here. We can facilitate the movement of freight, 
save time, enhance safety, safe fuel, if we require that 
anybody--we don't care who it is--who develops the system has 
to make it interoperable and meet a certain standard. That is 
plain and simple. I hope, when you investigate more, you will 
find out the answer is yes. If it isn't, we are going to want 
to get to yes on that.
    With that, I think I have exhausted my--one other quick 
question. We had a president who once discussed the meaning of 
the word ``is.'' I am going to get to the meaning of the word 
``shall.''
    Mr. Paniati, Congress said that, in order to promote 
reduction of fuel use and emissions because of engine idling, 
the maximum gross weight vehicle limit and the axle weight 
frame of heavy duty vehicle with an idle reduction shall be 
increased by a quantity necessary to compensate for the 
additional weight.
    [INOPERABLE SOUND SYSTEM]
    Mr. Paniati.--units, generators are another example. 
Manufactured housing, which I spoke about in my testimony is 
another example. Probably the largest one is the allowance of 
international containers that move goods in the global 
marketplace, which are allowed to move throughout the system 
without having to be broken down. We believe that is probably 
the source of the largest part of the increase, although it 
does not account for it all.
    Mr. Duncan. Well, since you can't tell me how many are for 
weight, as opposed to length, I would like for you to get some 
information on that, if you could.
    Also, do any of you know about any recent study which would 
tell us whether these trucks that receive these overweight or 
overlength permits, do they cause more accidents than trucks 
that come within the weight and length limits? Does anybody 
know anything about that?
    Mr. Paniati. I am not aware of a study in that regard, but 
we can certainly look into it and get back to you.
    Mr. Duncan. Do you know, Mr. Quade?
    Mr. Quade. Sir, we reviewed the study that the Federal 
Motor Carrier Safety Administration used when we were doing 
rules for training drivers of longer combination of vehicles 
that studied 75 companies that operated both longer combination 
vehicles as well as regular semi trailers for five years and 
tracked them over 2.8 million miles. That study determined that 
the longer combination vehicles were operated in a manner that 
was actually statistically a little bit safer.
    Now, that needs to be put into the context that the LCVs 
are allowed in the western States mostly on Interstate highways 
or major non-interstates where the traffic is less. It needs to 
be put into context that most of the information we have is 
that longer combination vehicles are not a significantly larger 
safety problem as they are operated today.
    Mr. Duncan. Well, but as you point out, those 16 States 
where those vehicles are permitted are the flatter, more rural 
type States also, less heavily traveled States, I think.
    Mr. Quade. Yes, sir.
    Mr. Duncan. Mr. Cole, two later witnesses will testify. One 
says studies clearly show the increased crash risk and crash 
severity produced by the use of longer, heavier trucks, and 
these longer rigs also swing entirely into opposing lanes to 
make right angle turns. And then another later witness says 
that the economic benefits enjoyed by a few would pale in 
comparison to the increased cost associated with the loss of 
life and property; accelerated deterioration of equipment and 
the highway system; and developing, implementing, and complying 
with the inevitable imposition of new rules and operational 
restrictions. Proposals such as increasing allowable vehicle 
weights from 80,000 to 97,000 pounds may be described as some 
as a minor change but could have a dramatic impact on the 
safety and structural integrity of some Federal lane highways.
    Do you have any concerns about that? I mean, you testified 
that you have heavier trucks going by schools and playgrounds 
now in the State. On the other hand, you want to put these 
trucks onto the interstate highways, and, of course, there are 
millions of children who travel on those interstate highways 
every day. So do you disagree with these two witnesses, do you 
think they are wrong?
    Mr. Cole. Well, I think it is wrong in the context of our 
situation in Maine. I can't really elaborate on their 
particular circumstances. But let me just say that studies have 
shown that traveling on a divided, controlled access highway is 
many times safer than going on the primary and secondary and 
back roads of the transportation system.
    I would also point out that our senior engineers at the 
Maine Department of Transportation, I have an opinion from our 
five senior engineers, including the chief engineer who has 
been there for 50 years, who was involved in designing, 
building, and maintaining the interstate, and they have come to 
the conclusion that putting the heavier trucks on the 
interstate will not result in significant deterioration. Matter 
of fact, I have copies I can leave with the Committee here 
today. Those are the people I put my faith in. But certainly, 
the interstate was built to a higher standard than the other 
roads in the State and is the best place to put the heavier 
trucks.
    Mr. Duncan. All right. Well, common sense also would tell 
you that a divided major highway would be safer than a narrow, 
two-lane road in most places.
    Mr. Opat, you say in your testimony the Minnesota DOT 
determined that a 20 percent increase in truck weight almost 
doubles--in other words, almost a 100 percent increase--in the 
fatigue damage to bridge decks and so forth. Do you know how 
they determined that? That is a pretty astounding figure.
    Mr. Opat. It is, Mr. Duncan. I am not aware of the 
calculations they used to arrive at that number, though.
    Mr. Duncan. All right.
    All right, thank you very much, Mr. Chairman.
    Mr. DeFazio. Thank you.
    With that, I will turn to the Chairman of the Full 
Committee, Mr. Oberstar, for his questions.
    Mr. Oberstar. Thank you, Mr. Chairman. I again want to 
welcome this panel and appreciate their testimony, Mr. Opat in 
particular from our State of Minnesota, from Hennepin County. 
You have rendered a great service there and you shed 
considerable insight on the issue before us today.
    Mr. Paniati, the Federal Highway Administration, some eight 
years ago, found that combination trucks weighing between 
80,000 and 100,000 pounds pay 50 percent of the cost of the 
effect of their driving on roadways into the Highway Trust 
Fund, and trucks weighing more than 100,000 pounds pay just 40 
percent of the adverse consequences of their travel on the road 
system, and concluded if truck size and weights were changed in 
the future, changes in Federal truck taxes should also be 
evaluated to match appropriately the pavement and bridge wear 
caused by heavier trucks.
    Does your administration adhere to that statement?
    Mr. Paniati. What we do believe is that the time is right, 
as we move to reauthorization, to reexamine this issue. It is a 
complex issue that requires balancing between safety, the 
economic benefits, the service life of the infrastructure and 
the pavements, and the funding mechanism. So we do believe, 
going forward, that we should look at the entire issue through 
all of its dimensions as we consider changes being made to any 
part of it, which would include the cost allocation that you 
cited.
    Mr. Oberstar. So in a general way you support the position 
taken by Federal Highways in 2000, but you are not being very 
specific about it, but that is all right, it is good enough for 
the moment.
    The Oregon experience, or experiment and experience, on 
vehicle miles traveled in lieu of the highway user fee is still 
under evaluation. Oregon, I think, made a bold stroke in moving 
ahead with this idea, and it has to be a factor that we 
consider next year in the authorization of the next generation 
of transportation infrastructure.
    But I think that, to be complete, if we are going to shift 
to a new model from the current highway user fee to vehicle 
miles traveled, it should also include weight, because the 
weight of the vehicle on the road surface, and especially on 
bridges, is a significant factor in the effect that the driver 
has on the road surface. If we are relating the Highway Trust 
Fund to the traveled surface, then we should reflect the amount 
of usage and the consequence of that usage on the road surface.
    There is another issue with respect to trucks, and that is 
the bridge formula. We don't have time today to enter into an 
exhaustive discussion, or even a superficial one, of the bridge 
formula. Briefly, for those who are not familiar with it, it is 
the engineering formula by which bridges are built so that they 
vibrate in harmony with the harmonic vibrations issued by the 
tractor or the tractor trailer combination. As trucks get 
heavier, engines get more powerful, that formula shifts and the 
vibrations likely are contributing to early deterioration of 
the bridges and contributing to the larger number of 
structurally deficient bridges that we have, along with other 
factors--corrosion and metal fatigue.
    But I want to know whether you have been paying attention 
to this issue of truck weight consequence on the road surface. 
Do you have updated studies? Do you have research data on the 
actual impact on the road surface, and various types of road 
surface--asphalt versus concrete--and on bridge structures from 
heavier weight vehicles, both those that are grandfathered in 
and those that are permitted to carry heavier weights and 
longer combination vehicles?
    Mr. Paniati. This is an area we continue to do research and 
work in. As you suggest, there was a cost allocation study that 
was originally completed in 1997 and updated in 2000. We expect 
to release an update this fall that looks at it from a macro 
level in terms of the impacts. We also are working to better 
understand the relationship between individual loads and the 
size of those loads and the damage that they might do on the 
infrastructure, both the bridges and the pavements.
    Going forward, I think we are becoming more and more 
sophisticated in our models and our tools to understand those 
relationships. We try to use that information to support States 
as they think about appropriate permitting fees associated with 
it. Studies like the Oregon study that looks more broadly at 
the potential use of technology with regard to the use of the 
system, offer the potential to bring a lot of dimensions in 
balance between the use of the system and the cost paid for the 
system.
    Mr. Oberstar. Do you have a document you can submit to the 
Committee that shows, over a period of X number of years, there 
has been this effect demonstrated, researched, documented of 
heavier vehicles, longer combination vehicles on the road 
surfaces and on bridges?
    Mr. Paniati. We can certainly follow up with the results of 
the research we have done to date and a summary of the research 
we have underway.
    Mr. Oberstar. Thank you. I would like to have that 
submitted to the Chairman, and we can then distribute it to all 
Members so they have it available. I think that is very 
important information.
    The overweight permits issued by States,--let me ask the 
State representative witnesses here--why are those not related 
to weight and effect of the permit of the heavier vehicle upon 
the road surface? Why is there no relationship?
    Mr. Honefanger. Mr. Chairman, Mr. Oberstar, in Ohio's case, 
we look at the weights. Every permit application we receive 
into our system receives a structural analysis and a 
determination as to whether that vehicle is safe to travel on 
the Ohio highways.
    Mr. Oberstar. But is the cost of the permit, or is there a 
cost associated to the permit, and is that related directly to 
the effect of the heavier truck on the road surface?
    Mr. Honefanger. Currently, in Ohio's case, permit fees are 
based on the administrative costs to manage our program.
    Mr. Oberstar. On the administrative cost. Why not on the 
effect of the road surface?
    Mr. Honefanger. Well, right now we are currently looking at 
ways to implement such a fee, but it is a long process and we 
are working with industry to do this in the least impacting 
manner.
    Mr. Oberstar. Mr. Cole, do you have a comment on that 
question?
    Mr. Cole. I believe we have a similar situation in Maine. 
However, this enforcement is outside of my department, but, 
Congressman, I will check into that and get back to you.
    Mr. Oberstar. Maine was one of the two States--Minnesota 
being the other--that I referenced in my opening remarks about 
trying to work out a pilot program, and Maine was not willing 
to assess the Federal Highway Administration determined fee for 
miles traveled and weight in the program, and I will give you 
an opportunity to say why you didn't want to do that.
    Mr. Cole. Well, Congressman, first of all, we are very 
appreciative of your efforts to find solutions. I don't 
remember all the circumstances around the proposal. I do 
remember there were some concerns on the part of the Department 
beyond even that specific issue, but, sir, I don't want you to 
go away feeling we didn't appreciate the efforts. We are still 
very much open to trying to find solutions.
    Mr. Oberstar. I was hoping we would get it launched last 
year so we would have some data available for the next 
authorization period, and Mr. Michaud participated with me.
    I just want to point out to all the witnesses in the course 
of the consideration of the SAFETEA-LU legislation, we had 14 
requests from various interests for exemptions for various 
times of the year for heavier and for longer combination 
vehicles. Everything from cotton modules--which I didn't know 
existed until someone from Arkansas came up with that 
proposal--sugar cane and sugar beets, and potatoes, and lumber 
and raw logs, and goodness knows. There were 14 of them.
    And we will face the same issue in the next authorization 
cycle and I tell you I am going to take a stand right now and 
say no. The burden is on you to prove that there will not be an 
adverse effect on the road surface or on those 76,000 
structurally deficient bridges or those other 77,000 
functionally deficient bridges on the National Highway System.
    Mr. Opat, you referenced the Hennepin County resolution or 
ordinance. I had to step out of the room while you were 
speaking on that to meet on another transportation issue. Would 
you restate that for me?
    Mr. Opat. Well, Mr. Chairman, Mr. Oberstar, just that the 
County Board did pass a resolution opposing any increase in 
weight limits, and I was speaking about the Lowry Bridge.
    Mr. Oberstar. Oh, it was the town board, not the Hennepin 
County commissioners?
    Mr. Opat. It was the County Board, and also the Minneapolis 
City Council passed it.
    Mr. Oberstar. Okay. I see. But that was for a specific 
bridge?
    Mr. Opat. No, to any increase. In your deliberations, any 
increase to weight or size. I was speaking about the Lowry 
Bridge that we have had to close now since we have had such a 
rush to inspect all our bridges to ensure that they are safe. 
And I know you are familiar with the Lowry Bridge, it is on the 
national highway connector, freight connector route, and it is 
one that we have great concerns over there; a number of 
industrial uses that come over that concrete amongst them, so 
it has been one of our foremost serious concerns.
    Mr. Oberstar. Well, there are just so many avenues of 
inquiry here, Mr. Chairman. We have a great many Members. I 
could spend the rest of the day myself on the questions I have, 
but I will desist, except to say, Mr. Quade, the middle name of 
your organization is safety. That is the other issue here on 
the Federal highway side, the impact of heavier vehicles on the 
road surface and on bridges, and the cost of reconstruction and 
rebuilding, and the other is the safety issue. I want you to 
get information from the Transportation Research Board on their 
most recent--which was several years ago--study of bridge 
formula and be prepared to come back and have a meeting with 
the Chairman and Mr. Duncan and myself on that subject.
    Thank you.
    Mr. DeFazio. Thank you, Mr. Chairman.
    We will, as per usual, go to Members in the order in which 
they arrived, and on the Republican side next would be Mr. 
Latta.
    Mr. Latta. Thank you very much, Mr. Chairman. I appreciate 
the hearing today.
    To our Full Committee Chairman, I could sit here all day 
and hear your questions, sir, so I appreciate your vast 
knowledge on the subject. I appreciate it.
    If I may just ask a few questions this morning and direct 
them to Mr. Honefanger, and not mainly in your capacity of 
AASHTO, but mainly as manager at ODAT. A couple questions.
    First, I appreciate your all for being here today because, 
where I come from in Northwest Ohio, of course, we have Indiana 
and Michigan as our borders, and one of the questions I have 
that has come up through the years is vehicles that are 
overweight that come out of Michigan that come into Ohio, how 
are those vehicles regulated and how far can they come into the 
State and what are those regulations?
    Mr. Honefanger. Currently, they would require a permit to 
enter the State of Ohio. We issue permits for what we call 
Michigan legal weights. Those permits allow travel into the 
three counties that adjoin Michigan, depending on the origin, 
destination. That is in order to allow Ohio companies to 
compete in Michigan so that they are not put out of business 
because they cannot meet the legal weight standards in 
Michigan.
    Mr. Latta. Just following up on that. When you are looking 
at the three counties, with those three counties, is there a 
distance or is it the county boundaries? How do you go by that?
    Mr. Honefanger. Typically, right now, it is a distance, 
probably 20 miles or less, because of the roadways and less 
structures in that relatively short distance.
    Mr. Latta. Another question is we were talking about the 
multiples and the other weights. Can you refresh my memory? It 
has been a while. What are the regs in Ohio for overweight 
vehicles or multiples? What are the requirements that a company 
would have to go through, or a trucking firm?
    Mr. Honefanger. Mr. Chairman, Mr. Latta, the legal weight 
limit in Ohio is 80,000 pounds. Anything that weighs greater 
than 80,000 pounds would have to have a permit to legally 
operate. If you are referring to divisible loads as the 
multiples, we look at that on a case-by-case basis. We really 
try not to issue permits to divisible loads; only in instances 
where there is a public purpose. If you are talking about 
multiple trailers, those are only allowed to operate on the 
turnpike with a few exits where we issue permits to allow the 
triples to exit and go into a marshaling yard.
    Mr. Latta. If I could just follow up on that statement in 
regards to the multiples on the turnpike. I know that the 
Ranking Minority Member, Mr. Duncan, asked this a little bit 
earlier, in regards to access to statistics. Do we have 
statistics as to the triples that are running on the turnpike 
right now?
    Mr. Honefanger. Mr. Chairman, Mr. Latta, we wouldn't have 
those at ODAT because the Turnpike Authority is its own 
governmental entity.
    Mr. Latta. Would ODAT be able to get those statistics for 
us?
    Mr. Honefanger. I believe we can, and we will forward them 
to you.
    Mr. Latta. Do you remember what year it was that they 
started allowing triples to be run on the turnpike?
    Mr. Honefanger. Mr. Chairman, Mr. Latta, no; it was before 
my time.
    Mr. Latta. Okay. Well, again, I appreciate your testimony 
coming down today, and all the panel, because this is an issue, 
especially when you are talking about economic development and 
other issues in this Country about trucking, and trucking is 
such a big part of Ohio, with 80 percent of our goods being 
delivered by trucks. So I appreciate your all coming back, and 
I yield back.
    Thank you, Mr. Chairman.
    Mr. Michaud. [Presiding] Thank you very much.
    First of all, I would like to thank Chairman DeFazio and 
Ranking Member Duncan for holding this hearing today. I would 
also like to thank the witnesses for coming today, for your 
thoughtful testimony.
    The issue of truck weight is an extremely important issue 
to me and to the State of Maine, and I know that Commissioner 
Cole knows the truck weight issue very well. I think Maine is 
unique in the situation that we have in the State of Maine and, 
as you can see on the screen today, the truck map that we have 
of the New England area, I think when you look at the map,--
which is also attached to Commissioner Cole's testimony--you 
can see that the portion of the interstate that is highlighted 
in green represents where the governor, the Maine legislature, 
the Maine Department of Transportation, the entire Maine 
congressional delegation, and hundreds of small businesses have 
requested an exemption from the Federal truck weight limit.
    What this map also shows is that Maine is surrounded by 
States and provinces that allow weight of 99,000 pounds or more 
on their interstate system. They are highlighted in the red. At 
the end of the day, Maine is asking to be treated fairly. And 
as the map clearly illustrates, Maine is at a competitive 
disadvantage. Thoughtful implementation of the Federal truck 
weight exemption for the remainder of Maine's interstate would 
help our struggling economy and at least put us at equal 
economic competitiveness. Maine has lost over 23 percent of its 
manufacturing base alone. A lot of that is in the paper 
industry, which uses trucks to move their products in and out 
of the State.
    The fact that Maine's interstate weight limits are not 
consistent with surrounding jurisdiction makes us an island 
onto itself. The weight limit change in Maine is crucial. 
Commissioner Cole did a great job in outlining the benefits for 
Maine. It will allow our industry in Maine to be competitive; 
it will save fuel costs; it will help reduce pollution; and, 
most importantly, it will promote safety for Mainers.
    I would like to ask unanimous consent that the entire Maine 
Department of Transportation study on truck weights be entered 
into the record. Without objection, so ordered.
    Mr. Michaud. Maine is unique in the Northeast and I believe 
it deserves a solution to the problem that we have, and I would 
like to ask a couple of questions dealing with weights--not the 
length, but weights. Actually, my question will be to 
Commissioner Cole.
    I know you talked a bit about the safety issue. Could you 
elaborate more on the safety issue as it relates to Maine 
specifically? I know that is a concern that we heard this 
morning, and the other panel will talk about the safety issue 
as well. So if you could elaborate, Mr. Cole, on the safety 
issue.
    Mr. Cole. Well, perhaps I can give you an illustration, 
Congressman, that will bring this home. The frustration among 
Maine people, as you know, is that within eyeshot of the 
interstate they are seeing these trucks go down their 
neighborhood roads through their village centers.
    Just to give you an illustration of that, if you look up at 
the map, the distance in the green shaded area is about 192 
miles from Augusta to Holton. That is what we call the gap or 
the doughnut hole. Trucks have to get off the turnpike at that 
point and take the secondary roads up to the northern part of 
the State. As you transverse those secondary roads, primary and 
secondary State roads, what you are going to find along the 
way--now, versus interstate divided highway--along the 
alternate route, you are going to go through at least 20 
traffic signals, more than 270 intersections, and over 3,000 
driveways and entrances. Add to that numerous schools, gas 
stations, pedestrian crossings. It is just common sense that 
allowing the heavier trucks to go on the interstate, which runs 
parallel to many of these routes, is just common sense and it 
is safer for all concerned.
    I should add that our truckers want to be on the 
interstate. It is the most safe and efficient route for them 
and the public.
    Mr. Michaud. Thank you, Commissioner Cole.
    My next question is to Mr. Paniati. I read somewhere along 
the line there is a study that the DOT looked at the footprint 
of tractor trailers as it relates to the road system and found 
that a 97,000 pound, 6-axle vehicle is actually softer on the 
footprint than an 80,000 pound, 5-axle vehicle. I am not sure 
where I read it, I think it was a DOT study. Is that correct?
    Mr. Paniati. I am not familiar with the study that you 
refer to. Certainly, any changes like that, to 97,000 pounds, 
would have to be examined both on the pavement side as well as 
Chairman Oberstar indicated in the bridge formula to understand 
their implications. As I said earlier, the Department believes 
that moving forward toward reauthorization is the time to look 
at such changes, but in the context of safety, economic 
productivity, as well as the service life of the pavement and 
bridges.
    Mr. Michaud. My last question is to Mr. Honefanger. In your 
testimony you mentioned that AASHTO, in cooperation with the 
U.S. Department of Transportation and the trucking industry, is 
in the process of carrying out recommendations that call for an 
investigation into the feasibility of regional adjustments in 
truck size and weight in particular corridors that demonstrate 
important economic and safety benefits. Where does that stand 
now and have you actually looked at the particular issue we are 
facing in Maine when you look at the weight situation?
    Mr. Honefanger. Mr. Chairman, I am aware that there are 
regional groups within AASHTO that are working on things like 
regional permitting. The Northeast, with cooperation of the 
National Federal Highway Administration, for example, has 
recently worked with the manufactured housing industry to 
develop better procedures, better ways of moving these 
overdimensional loads through the Northeast region. The 
Southern States have a regional cooperative agreement to issue 
permits; the Western Region. The Mississippi Valley, the 
central part of the Country is working on developing the 
process to make a regional type permit to facilitate the 
movement of overweight, overdimensional loads.
    Mr. Michaud. When is the study going to be done?
    Mr. Honefanger. Mr. Chairman, we have not done a formal 
study. Basically, the Subcommittee on Highway Transport within 
AASHTO, we have begun discussions and have opened up dialog 
with the trucking industry, working with our Federal partners, 
working with the member States to approach this, but we have 
not done any formal studies.
    Mr. Michaud. Thank you.
    Mr. Brown?
    Mr. Brown. Thank you, Mr. Chairman.
    Thank you, gentlemen, for coming and creating some dialog 
on this issue. I know in South Carolina, we were one of those 
study States who would be participating in the 97,000 pound 
truck.
    Mr. Paniati, I have a copy of the study that you have here 
and there are a number of States that exceed the 80,000 pound 
limit, like we are positioned in South Carolina to enforce. 
Could you tell me the rationale behind--I know that Mr. Cole 
stated, and I think the Chairman of the Full Committee also 
stated, that there is some, I guess, risk of deterioration of 
our roads and bridges based on the weight of the trucks. Yet, I 
noticed in the State of Michigan, where there is a 164,000 
pound limit, which is double the allowable limit in South 
Carolina.
    Mr. Paniati. Yes. The limits you refer to were what were 
grandfathered in in 1956 with the Interstate System, so there 
are a variety of weight limits across the Country, from 80,000 
pounds to much higher limits from State to State. The law as it 
exists allows those grandfather rights, which vary from State 
to State not only weight limits, but also whether the load has 
to be permitted or not, whether it is restricted to a 
particular commodity, and whether it is restricted to a 
particular route or set of routes. So there are a variety of 
complexities that go along with the grandfather rights that 
exist from State to State.
    Mr. Brown. Have you been able to statistically tell the 
difference between the maintenance or the deterioration of 
those roads and bridges in Michigan compared to, say, South 
Carolina, some of the States restricted to the 80,000 pounds?
    Mr. Paniati. We have not done those specific State-to-State 
comparisons, but as I discussed earlier, we do know that 
heavier loads do increase deterioration on roads and bridges, 
and that there is certainly a relationship between the two.
    Mr. Brown. I know, as we look at the truckers now around 
the Nation, with diesel fuel approaching $5.00 a gallon, there 
is a constraint to be able to continue to operate. A lot of the 
independent truckers are actually going out of business because 
they can't continue to increase the fees enough to offset the 
cost of fuel, so I guess everybody is looking for more 
efficient ways of doing it. Are there any models or any studies 
in the auto industry or the trucking industry to detect better 
methods of transporting goods with more technically efficient 
trucks?
    Mr. Quade. Sir, what I can tell you is that the Federal 
Motor Carrier Safety Administration has been involved in 
studying numerous technologies that might be applied should a 
decision be made to allow increased weight, such as electronic 
roll stability, automatic collision warning systems, lane 
departure systems. These are technologies that we are promoting 
for the trucking industry to adopt voluntarily and are 
certainly among the things that we may be able to implement 
should the policy decision be made when looking at all the 
factors that Mr. Paniati has explained with the safety, the 
infrastructure, the environmental considerations. Those are 
some tools that we might be able to use in order to make sure 
that if we increase the weights, it can be done safely.
    Mr. Brown. When was the 80,000 pound limit set?
    Mr. Paniati. That was set in 1974.
    Mr. Brown. And there has been no revision since then?
    Mr. Paniati. No, there has not.
    Mr. Brown. These States that are grandfathered in, are they 
required to have six axles or are they up on the five axles?
    Mr. Paniati. Again, there are a variety of different 
configurations, I believe, that are used within those States 
under the longer combination vehicle freeze that was enacted in 
1991.
    Mr. Brown. Thank you very much.
    If I could ask Mr. Honefanger, in issuing the permits, what 
criteria do you use and what upper limits do you use in issuing 
those permits?
    Mr. Honefanger. Mr. Chairman, Representative, in Ohio's 
case we look at the vehicle compared to the structures that it 
may cross, the geometrics of the highway. To say there is a 
limit, we really don't cap it. If it passes analysis, we issue 
a permit.
    If I may also, my colleague from Louisiana--since he is 
involved in issuing permits--I know Louisiana does it 
differently than we do in some cases, so I will let him further 
answer that.
    Mr. Silvio. Yes, sir. In Louisiana we also don't 
necessarily have a cap, per se, in terms of how heavy a load 
can be. We do have guidelines in place, though, that require 
analysis or even more thorough analysis, depending on the 
weight. For example, what we would call a routine permit would 
be up to like 232,000 pounds gross weight. But beyond that, 
given the petrochemical industry and so forth in Louisiana, we 
do have opportunity from time to time to have much heavier 
loads, or I should say the need to analyze those and issue 
permits for those.
    I will say, too, it was mentioned earlier by Mr. Oberstar 
with regard to fees and so forth, Louisiana is a little 
different than Ohio in terms of how we administer those fees. 
Our fees would be more in line with recapturing, I guess, 
somewhat the damage that is done. I don't think that you can 
ever--I am not sure that there is a way to totally recapture 
that without doing irreparable economic damage to the industry, 
because it is so expensive in this day and time.
    For example, a mile of interstate you might be talking 
about $4 million construction, that type of thing, or 
maintenance type situation. So you just have to basically try 
to do some sort of a ton-mile type fee structure where you can 
charge them how much they are over the legal weight plus how 
far they travel and base it on that. So that is how we handle 
it in Louisiana, and it works pretty effectively.
    Mr. Brown. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Michaud. Thank you.
    Mr. Sires?
    Mr. Sires. Thank you, Mr. Chairman, and thank the panelists 
for being here. I have a couple of questions.
    I represent a district in Northern New Jersey which has the 
ports, has the tunnels, and one of the statistics that is 
always thrown about is that in New Jersey, that particular 
part, by the year 2020, trucking is going to double, and I am 
concerned about the safety factor, because as these trucks get 
bigger, they get heavier. I know the drivers have a guideline 
of how many hours they can be in these trucks. Obviously, with 
the bigger trucks, with the heavier trucks, any accident tends 
to be more catastrophic. Who monitors the amount of time these 
drivers are in the truck? There is a Federal law.
    Mr. Quade. Yes, sir. The Federal Motor Carrier Safety 
Administration has rules on the hours of service limitations 
for drivers. We have staff in every State that does compliance 
reviews on trucking companies that are having poor performance 
on our highways. We also, through our grant program, fund 
enforcement agencies in every State to do over three million 
roadside inspections a year, during which the hours of service 
are checked. We are the agency responsible for ensuring that is 
done.
    Mr. Sires. So has anybody noticed a correlation with the 
fact that you now have bigger trucks, the accidents tend to be 
more often as it relates to the human factor?
    Mr. Quade. Sir, I think that there are many, many factors 
that play into the performance of drivers on the highways, and 
isolating one is very difficult. I can tell you that for the 
most recent year for which we have crash statistics, the 
fatalities involving large trucks dropped 5 percent between 
2005 and 2006. This is the lowest rate since we started 
tracking this data in 1975.
    Mr. Sires. It says here the permits have gone up 40 percent 
for overweight permits. Despite that, it dropped 5 percent?
    Mr. Quade. Yes, sir.
    Mr. Sires. Pretty amazing. Thank you very much.
    Mr. Michaud. All done?
    Mr. Sires. Yes.
    Mr. Michaud. Ms. Fallin?
    Ms. Fallin. Thank you, Mr. Chairman.
    I appreciate all of you coming today to provide us good 
information. I know it is a very important topic, but I have a 
little bit of a different angle I would like to visit with you 
about that I have been pursuing for about the last year that I 
have been on this Committee, along with some other Congressmen, 
Representative Dan Boren and Representative Aderholt. It deals 
with safe and efficient transportation of our agriculture 
commodities and the goods to market in the rural areas of our 
States. I know that many of you represent within your whole 
State rural areas too.
    How we can, under our existing Federal motor carrier safety 
regulations, help producers get their products to the 
marketplace and commodities when they are forced to comply with 
some of the same regulatory requirements as individuals 
operating under commercial motor vehicle year-round licenses 
and regulations, even though they are transporting seasonal 
goods with smaller haul vehicles that are used just within a 
State? And occasionally they cross State lines and get caught 
up in the Federal regulations for weight limits.
    I have a picture here I want to show you specifically what 
I am talking about, and that is our farmers hauling their goods 
and commodities, as I said, around their communities. On 
occasion, in my State, they may cross State lines and get 
caught up between the variance of some of the exemptions that 
have been allowed in the weight limits.
    I guess my question is, I would like to know that if we 
were able to amend the commercial motor vehicle safety 
requirements to exempt farmers who are engaged in agricultural-
related activities from the Federal commercial vehicle and 
operator regulations, would this have an impact upon safety for 
this type of vehicle? Would it have an impact upon the 
marketplace, upon efficiency of travel?
    I know we talked a little bit about economics and commerce, 
and trying to stimulate the economy, especially here in these 
difficult times of rising fuel prices. Would you see a problem 
if we had legislation--which I have actually introduced--that 
would impede upon the safety and trucking limits?
    Mr. Quade. Congresswoman, I can comment on that. The 
Federal Motor Carrier Safety Act of 1984 set the limit for 
interstate transportation at 10,001 pounds, and many of our 
motor carrier safety regulations start at that level. When a 
farmer crosses a State line, he becomes an Interstate 
transporter. Indeed, even some transportation within a State is 
determined to be interstate because the final destination is 
interstate. So we do have some exemptions in our regulations to 
try to assist the agricultural community while maintaining 
safety.
    I can tell you--and I don't have any statistics with me, 
but I can provide them--that agricultural trucks are a more 
statistically significant portion of crashes--not the 
majority--but there are crashes. We do see in our safety 
analysis, in our data analysis, that agricultural trucks are 
involved in crashes and are a safety problem that the agency 
believes we need to continue to oversee within the limits that 
are set.
    Ms. Fallin. Any other comments here?
    [No response.]
    Ms. Fallin. Do you have issues with this in your rural 
areas of your States?
    Mr. Honefanger. Mr. Chairman, Representative Fallin, yes, 
we do, but in Ohio's case we allow an exemption of 7.5 percent 
for agricultural commodities being transported form the field 
to the market, so to speak, is the way it is phrased, as long 
as they do not travel on the interstate highway system. 
Louisiana has exemptions also.
    Mr. Silvio. Yes, Ms. Fallin. Louisiana has made allowances 
for agricultural products, particularly sugar cane. I think 
everyone is aware there is actually a special allowance for 
those to travel on the interstate. Otherwise, the allowances 
are for travel off of the interstate. But they can carry 
agricultural products in a natural state up to 100,000 pounds 
in Louisiana.
    With regard to safety concerns, I think that is sort of out 
of our area in DODT; our Department of Public Safety handles 
those type situations. I can say that it is kind of hard to 
equate agricultural haulers with normal permit haulers because 
the permit haulers are a very special type of profession; 
whereas, maybe when you are hauling agriculture you have a 
different type of individual doing that type of work, maybe not 
as specially trained. So it is hard to speak to the safety 
aspect of that. But we have made allowances in Louisiana for 
agriculture products and, as far as I know, it has worked 
effectively.
    Ms. Fallin. Mr. Quade, if I could ask you one more 
question. You said that you are tracking statistically about 
safety of these farm trucks. What do you find that is a problem 
that you are stating, is it quality of the truck, the brakes, 
the condition of it?
    Mr. Quade. Well, I was speaking just to the statistics. 
There are literally hundreds, perhaps thousands, of farm 
vehicles that are involved in serious crashes every year, I 
don't think that farm vehicles are atypical of any other type 
of truck on the highway. There are a variety of reasons why 
crashes happen, from operating too fast to inattention to 
occasionally vehicle maintenance problems, although those are 
actually the minority, as opposed to the majority.
    Ms. Fallin. So do you find a difference between that and 
just passenger travel on highways? Do you find an increase in 
that? Are they less safe?
    Mr. Quade. At the Federal Motor Carrier Safety 
Administration, we oversee commercial motor vehicle trucks. I 
am not aware of an analysis of the CMV data versus the 
passenger vehicle data.
    Ms. Fallin. I am just curious that there would be a higher 
incident of traffic issues with farmers taking products within 
their State versus just regular transportation. But if you have 
a report on that, I would like to see that.
    Mr. Quade. I can certainly see what we have on that 
subject.
    Mr. Michaud. Thank you.
    Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman. I am listening to 
all the testimony and I have a district that has large truck 
volume. I have three freeways that I contend with. One has 
25,000 trucks a day, another one 22,000, another one about 
40,000, and it is expected to double by 2020. So truck traffic 
is exceedingly important in my area and its safety to the 
residents that I represent.
    Looking at one of the reports that we had, in 1997, the 
Federal Highway Cost Allocation Study, which apparently had an 
addendum in 2000, found that the registered vehicles that had 
weights 75,000 to 80,000 paid only 80 percent of their share of 
Federal and the 80,000 to 100,000 paid only half, while the 
lightest trucks are pretty much comparable in paying for their 
effect on highways.
    Have we done an update on that study? Do we have any way of 
being able to say maybe we need to increase the taxes on those 
that are affecting our highways and our streets? I can tell you 
I live in an area where I have a distribution center, and those 
ruts you can actually build something in them they are so deep.
    Mr. Paniati. The study that you refer to looked at the 
Federal side the impacts as well as the revenues coming in to 
the Highway Trust Fund from commercial vehicles. We are in the 
process of updating it. We expect to have that update available 
this fall, those numbers are currently being updated.
    Mrs. Napolitano. Are you taking input?
    Mr. Paniati. Sure.
    Mrs. Napolitano. From States?
    Mr. Paniati. Yes, we are. We are working collaboratively in 
pulling that together. We work closely with the States and use 
a lot of the data that come from the States to support our 
highway cost allocation analysis.
    Mrs. Napolitano. Okay, because I would love to be able to 
see that, Mr. Chair, handed to this Committee, at least the 
draft, to see where they are going with it and to indicate 
whether or not that is going to be part of the solution.
    Mr. Paniati. Yes. We can certainly follow up and outline 
the work we are doing and where we are in the process.
    Mrs. Napolitano. The other question I have has to do with 
the number of miles that are federally controlled, in other 
words, the upkeep is paid for by the Federal Government, up to 
90 percent; and the rest are State, county, whatever other 
responsibilities. What difference is there in being able to 
determine whether or not some of these roads abide by the 
standards set by the State in usage for the increase in weight, 
since there is no height limitation? My concern also is, 
according to Chairman Oberstar for the bridges, the weight 
increase that is going to create more stress on those bridges. 
That is one of the concerns.
    Mr. Paniati. Federal weight restrictions apply only to the 
Interstate System. Off the Interstate System the States 
determine the weight. In size area there is what is called the 
National Network, which is approximately 209,000 miles, which 
provides for the network of allowing for certain size vehicles 
to be able to traverse uniformly across the system.
    Mrs. Napolitano. On the waivers or the grandfathering for 
those weight limits or for the trailer standards, I know in 
California I travel right by the UP and the NSF rail line, and 
I see 52-footers coming out of there, beaucoup of them, not 
just the 48. I come from the transportation industry, by the 
way, so I understand a little bit more. If we have a limit, why 
are we grandfathering and what is it that we can do to ensure 
that grandfathering does not contribute to the downgrading of 
our roads and highways?
    Mr. Paniati. The grandfathering is sort of what we 
inherited in 1956 and have lived with going forward, in 
addition to the limits that were put on longer combination 
vehicles in 1991, so we do have a mixture of laws and 
regulations out there. On the size side, the Federal regulation 
deals with size in two areas: it deals with, as I mentioned, 
the National Network, which provides for twin 28-foot trailers 
or 48-foot single out on the roadway; and then it provides for 
and caps the longer combination vehicles as they existed in 
1991, which includes a number of the Western States in 
particular. But I think there are 21 States that have the 
ability to allow longer combination vehicles.
    Mrs. Napolitano. But how are you able then to ascertain 
that some of those are not violating your grandfather clause?
    Mr. Paniati. Well, it is the State's responsibility to 
enforce the laws. We work with the States through the annual 
certification and planning process and our oversight by our 
Federal Highway Administration Division Office personnel 
located in each State. There is a designated person that works 
with the State that receives the plan. As part of that planning 
process, the State has to identify any changes in State law 
that conflict with the Federal requirements, and we work 
closely with the State legislatures to ensure that doesn't 
happen. Then they work closely with the State in overseeing the 
permitting process, the entire process, to ensure it is in 
compliance with Federal requirements.
    Mrs. Napolitano. Okay, because at that time there was an 
attempt to put tandems that were more than the on-ramps could 
tolerate, and that would have caused a lot of safety issues 
with the traveling public.
    Thank you, Mr. Chair.
    Mr. Michaud. Thank you.
    Mr. Boustany?
    Mr. Boustany. Thank you, Mr. Chairman. Mr. Chairman, first 
of all, I want to offer my greetings to Mr. Silvio from my home 
State of Louisiana. I look forward to working with you on all 
these complex issues.
    Commissioner Cole, in your testimony you stated that the 
MaineDOT study found that an interstate weight exemption 
increasing weight limits would save the State annually in 
bridge and pavement costs, but lowering the State truck weight 
limits would result in more net damage to the system. Can you 
go into that a little bit more? Clearly, there are other 
factors here. The one that comes to mind to me would be traffic 
volume, but could you discuss that?
    Mr. Cole. Basically, the net savings are a result of taking 
the heavier trucks off the secondary and primary State roads, 
which are more vulnerable to damage, and putting them on the 
interstate, which is better designed to accommodate that type 
of vehicle.
    Mr. Boustany. Okay.
    Mr. Cole. It is as simple as that. There is a pretty 
extensive methodology in the report which I don't pretend to 
understand thoroughly, but that is the essence of it.
    Mr. Boustany. Because it raised a question to me. If we 
increase weights and size, do you actually reduce trucking 
value?
    Do we have any answers to that, Mr. Paniati. Have there 
been any studies that show that kind of relationship?
    Mr. Paniati. I think that is a logical expectation, that 
increasing the size and weight would decrease the number of 
vehicles on the roadway. There have been some Canadian studies 
in particular that have allowed heavier, longer vehicles that 
have looked at that particular impact. So that is a logical 
direction that it would go.
    Mr. Boustany. Because I wonder if you did increase the 
weight limits and size limits, you reduce trucking traffic 
volume. Does that have a safety benefit and does that 
ultimately reduce wear and tear? I guess it clearly depends on 
the surface and the other factors that Chairman Oberstar had 
mentioned earlier. I guess what I am getting at is do we really 
have good cost benefit analysis data on this that would help 
us, as we go forward with the next highway bill. Are these 
weight limits and size limits that are imposed statutorily, are 
these arbitrary numbers?
    Mr. Paniati. I think there is a lot of technical 
information that exists in the industry in this area. There 
have been several studies done by the Transportation Research 
Board; there has been quite a body of work done by the Federal 
Highway Administration; and we certainly stand ready to provide 
technical assistance to members with regard to the potential 
impacts of proposed changes.
    Mr. Boustany. Okay. I appreciate that, because in looking 
at all this, clearly, we have to look at the infrastructure, 
wear and tear, and the safety side, and how does that all fit 
in to a cost benefit analysis, and then the impact on fuel tax 
revenue. If we go with that standard approach, do we have good 
data on whether heavier loads--clearly, you are getting fewer 
miles to the gallon, but maybe with less traffic. What is the 
ultimate impact on fuel tax revenue? Is there data on that?
    Mr. Paniati. Again, I think we could do the analysis 
necessary to do that. As you suggested, it is a very complex 
equation with several variables in there, and you need to 
analyze each one of those to really understand the net impact 
on the whole. I think we do have sufficient body of knowledge 
on each of those variables in which to conduct that kind of 
analysis.
    Mr. Boustany. I appreciate that.
    Any of you other gentlemen want to comment on any of this, 
please do so.
    Mr. Silvio. I would just like to comment that, first of 
all, thank you. I look forward to working with you as well on 
some of these issues. I did want to say that we have done some 
studies in Louisiana with regard to the impact of these 
agricultural loads on both interstate and non-interstate and 
where they travel, and there are some general things that came 
out of those studies that I think is important to note with 
regard to cost benefit.
    Number one, those trucks tend to be 18-wheeler or 5-axle 
type vehicles and, in general, the heavier you get on a group 
of axles, the more damage that you are going to do. So a lot of 
it can be mitigated just by reducing the amount of weight that 
is allowed on a tandem axle, for example, a 2-axle trailer. If 
you get up to 48,000 pounds, for example, that becomes a source 
of significant damage; whereas, if you reduce that back to, 
say, 44,000, you have accomplished a lot just by reducing that 
weight that is allowed.
    The other thing is if you add axles, which is something 
that is in Louisiana law for the sugar cane trucks, they are 
going to be required to add the third axle on the trailer to 
help mitigate the damage that they are doing, and that will 
help with the amount of damage. Now, there is a cost involved 
to industry to do that, and they are looking at creative ways 
to be able to help them maybe absorb some of the pain of that. 
But there are studies that have been done that I think can help 
out in this area.
    Mr. Boustany. Thank you very much.
    I yield back.
    Mr. Michaud. Thank you.
    Ms. Richardson?
    Ms. Richardson. Yes, thank you, Mr. Chairman.
    First of all, Mr. Cole, when Mr. Sires asked you the 
question specifically about safety, he referenced the fact that 
in his particular community they expect an increase of traffic. 
My district is the same. I represent the Long Beach area in 
California, with the two largest ports in the Nation, 45 
percent of the entire Nation's cargo.
    So my question to you is, first of all, could you please 
provide to this Committee the safety report by State and by 
district, because coming from local government, I know you can 
say overall that safety has reduced by 4 percent, but that 
doesn't mean particularly in my district it has reduced by 4 
percent. In fact, in my area it could have gone up 10 percent.
    I have the 710 Freeway, for example, and we are on the 
national news on a weekly basis of some sort of accident 
involving trucks, where people are hurt and traffic is snarled, 
and there is much issue surrounding that. So can we get that 
from you?
    Mr. Cole. Yes. I believe the report was included with the 
testimony.
    Ms. Richardson. Is it by district? I didn't see it by 
district.
    Mr. Cole. You mean Maine districts?
    Ms. Richardson. By our Congressional districts.
    Mr. Cole. Oh, no, no. This pertains specifically to Maine.
    Ms. Richardson. I am not talking about Maine. I am a Member 
of Congress from California. I am sorry, maybe I have the wrong 
name, the gentleman to the right of you. I apologize.
    Mr. Quade. Ma'am, I will see what we can do about breaking 
down the truck crash statistics by district. We certainly do it 
by State on a regular basis, and we can see what we can do 
about doing it, how much granularity we can get with respect to 
reporting that, yes.
    Ms. Richardson. Okay, so, at a minimum, it would be by 
State, and if not that, by region, because many of us, for 
example, Mrs. Napolitano, we have the same area in the same 
region, meaning Los Angeles County.
    Mr. Quade. Right. We can, at a minimum, do it by State and 
I think we can examine whether we can do it even more granular 
than that.
    Ms. Richardson. Okay. And I apologize if I have got--I 
can't really see the names here. Mr. Paniati, the other 
question that I had was you had a question from my colleague 
that said, based upon having larger trucks, would that 
potentially reduce congestion. All of us sitting here on the 
Transportation Committee have heard to nauseam that we expect 
traffic, in terms of congestion with trucks, to double, if not 
triple, within the next 10 years. So I was a little surprised 
with your response and would challenge you to go back and let's 
really look at that research, because just because you get a 
larger truck doesn't mean that we still have more goods that 
are coming in. So, yes, you have a larger truck, but I think 
only larger trucks would just allow for, instead of a 30 
percent increase, maybe it is a 10 or 20 percent increase. But 
to say to us, as Members of Congress, that we can anticipate a 
reduction in congestion, I think that is laboring very closely 
to not being correct.
    Mr. Paniati. I apologize if that is the impression that I 
left. I did not intend to suggest that they would reduce 
congestion. I was responding to the question about if you take 
the same amount of goods currently carried and you increased 
the size of trucks, could you then reduce the number of trucks 
carrying those same amount of goods, which I think----
    Ms. Richardson. Sir, I am not going to ask our clerk here 
to read it back, but I did not hear the term ``same.'' I did 
not hear that.
    Mr. Paniati. Well, I apologize if I wasn't clear in my 
response. But certainly I would agree with you that larger 
trucks, in and of themselves, would not reduce congestion out 
on the system, or eliminate the congestion problem that exists 
out on the system. You are correct that our figures indicate 
that we are in a period of rapid growth in terms of the volume 
of trucks on the roadway, so that is a fact that we are trying 
to deal with, and this is one avenue to begin to deal with it, 
but it certainly would not fully address the problem.
    Ms. Richardson. Then, Mr. Chairman, let it be noted for the 
record, as I stated, I believe his original answer was 
incorrect, and I do not believe it was stated as same. This is 
serious business here. I represent a district where goods 
movement is key, and I support goods movement, but we have to 
make sure that, as many Members have said here, also safety is 
a part of that, and that is a critical piece that has to be 
done accurately. Thank you.
    Mr. Michaud. Thank you very much. Those are very good 
questions, and it gets back to the issue that this is a complex 
issue. Actually, I was just out in LA County last week, and I 
saw the problem that you are facing. But when you look at 
different situations such as Maine, actually, it could reduce 
congestion in the communities by putting them on the 
interstates. So it is different situations for different 
States, and I think it is going to take a lot of work to try to 
do something to take care of the problem.
    Mrs. Capito?
    Mrs. Capito. Thank you, Mr. Chairman. I want to thank the 
Members. Talking about different situations, we are going to go 
from LA to West Virginia.
    In 2003, our legislature designated certain roads in the 
coal field area as certain trucks to be able to carry up to 
120,000 pounds. This was in response to a lot of problems from 
heavy coal trucks that were repeatedly violating it, so this 
has been in effect for several years.
    Here is the problem. I want you guys to help me out with 
this. The truck comes out of the hollow; it is going down to 
the prep plant; it goes through the little town of Chesapeake 
where the houses are built right on the two-lane road.
    You are from Ohio, you know exactly what I am talking 
about.
    And they come barreling down there. I am sure they are 
driving the speed limit but, still, 300 or 400 trucks a day on 
the way to the preparation plant. Well, if they could get up on 
the interstate, which they have to go under for seven miles, 
they can go from exit to exit to get onto the preparation--get 
on the interstate seven miles, get off, and get to the 
preparation plant and save the town of Chesapeake and a lot of 
the people there a lot of danger, a lot of dirt, and a lot of 
sort of fear when business is going on.
    The only mechanism I have found to try to do this is 
through legislation, and I have been repeatedly shut out of 
being able to do that for that seven mile tract on Interstate 
64. Can you give me some other suggestions on how I can get 
this done, or is this my only option?
    Mr. Paniati. I believe it is your only option. The Federal 
Highway Administration does not have the ability to waive or 
exempt vehicles of heavier weights on any part of the system. 
So while we might look at the situation and come to the exact 
same conclusion that you have, we do not have the authority to 
grant that waiver.
    Mrs. Capito. Well, then the next thing I would say is 
waivers have been granted. For instance, in West Virginia, on 
Interstate 70 in the northern panhandle--and you may have this 
in Ohio too--there have been some waivers granted for steel 
shipments for, obviously, the heavy weight of what is being 
carried. When was the last waiver granted that you are aware of 
and does it fall within the category which I am trying to 
address here?
    Mr. Paniati. I would have to get back to you for the record 
exactly when the last one was granted, but I am aware of at 
least 12 exceptions that exist that have occurred as a result 
of legislation, congressional action that have provided various 
exemptions.
    Mrs. Capito. If you could provide that list for me. I mean, 
I think I have seen parts of it, but I would like to see an 
entire list. You know, it is funny in the discussion of this, 
each of our States have different issues and different ways 
of--you know, when you look at safety, putting the truck up on 
the highway, is that safer or not safer? Well, running it 
through Chesapeake, is that safer or not safer? And I think 
this is where I think maybe a little more flexibility, at least 
in my State, in terms of these larger trucks and coal shipments 
might be a way to really answer the safety question and the 
other issues associated with carrying coal to the processing 
plant. That is my only question. Thank you.
    Mr. DeFazio. [Presiding] Thank you.
    Mr. Dent.
    Mr. Dent. Thanks, Mr. Chairman.
    I guess I will address my question to Mr. Paniati. 
Following up on Congresswoman Capito's comments, I have seen 
situations in my district where we have had water trucks that 
were not allowed to move at 100 percent capacity; in other 
words, they could only fill the water up to maybe half or two-
thirds to meet the weight requirements. But it was often cited 
that taking a container half filled with water was less safe 
than a container full of water coming down some of the rural 
roads, and we would look for exemptions and I understand the 
complexity of this issue. That was just one issue in my 
district.
    Similarly, I have a truck manufacturer in my district, Mack 
Trucks, and we were dealing with the CAFE issue, corporate 
average fuel economy, and they were very concerned about CAFE 
being applied to heavy trucks. They make a lot of refuse 
trucks, garbage trucks, construction vehicles, and their 
argument was that they could perhaps meet such a standard, but 
they would truly have to build a much smaller, lighter truck; 
and they argued there would be more trucks on the road, and how 
much fill are you going to save.
    I know Dr. Boustany asked I guess Mr. Cole from Maine about 
that issue, about the heavier truck. I guess the heavier truck 
would result in limits that would result in less net damage? 
Did I understand that correctly?
    Mr. Cole. Our dilemma is trying to harmonize truck weights 
in our State. Our proposal is to increase the Federal weight to 
match the State weight, but others have said why don't you turn 
everything back to 80,000 pounds, and part of the reason is for 
every two trucks that are operating at 100,000 pounds gross 
vehicle weight, you would need almost three trucks at 80,000 to 
replace them. So if you look--actually, I have in my 
testimony----
    Mr. Dent. So you would need more vehicles on the road to 
haul the same amount of material, essentially?
    Mr. Cole. Right. In my testimony I cite out of USDOT's 
Comprehensive Truck Size and Weight Study. When you look at 
load equivalency factors, which adjust for payload--not just 
the size and weight of the truck, but payload--to carry the 
same amount of payload, it is less impactive at 100,000 pounds, 
if I am reading and interpreting this correctly.
    Mr. Dent. So you would be advocating a maximum flexibility?
    Mr. Cole. I am with the lady from West Virginia. 
Absolutely.
    Mr. Dent. Mr. Paniati, do you want to add anything?
    Mr. Paniati. Again, our job is to implement the laws as 
passed, which is what we were doing, and we do not have any 
flexibility to be able to grant waivers or exceptions beyond 
the existing Federal weight requirements. So these individual 
situations that you identify, I can see where there is clearly 
a logical rationale for operating differently than we do today, 
but we do not have the authority to grant those exceptions.
    Mr. Dent. Have you given any thought to my comments? The 
CAFE standards, they do not apply to the heavy trucks, but 
there was a lot of concern at the time that they may in fact be 
applied to heavy trucks, and the fear was that you would have 
to have more trucks on the road to haul the same amount of 
material and you wouldn't save fuel in the end. I don't know if 
anybody has any thoughts on that issue.
    Mr. Paniati. I would have to have someone get back to you 
for the record on that. That is not an area of expertise that I 
have, in the CAFE standard area.
    Mr. DeFazio. Okay, we will now turn to Mr. Duncan.
    Mr. Duncan. I will do this very quickly, because I know we 
need to get to the next panel.
    These weight limits vary greatly from State to State. I 
think we counted up 24 States that have over 80,000 pound 
limits. Michigan has 164,000; New York has 143,000. I noticed 
that Massachusetts, which is a heavily urban State for the most 
part, has 127,000. Does Michigan have a lot more wrecks of 
these big trucks, or New York? Have you see any State-specific 
studies, Mr. Paniati or Mr. Quade, in these States that have 
these much, much greater weight limits?
    Mr. Quade. Sir, we do have data on the number of crashes by 
State, as I was describing to the Congresswoman earlier. With 
respect to what the weight of that truck was during that crash, 
I will have to investigate to see whether we have any data that 
is that specific.
    Mr. Duncan. All right. Well, I can see why Maine feels it 
is unfair, when all the States around it have these much higher 
limits. I saw where, in Canada, they vary from province to 
province. I think they average 127,000. Mexico averages 
106,000, although it is not enforced.
    One final question. Mr. Paniati or Mr. Quade, can either of 
you--you know, somebody else said it would be safer because 
there would be fewer trucks on the road if we go to heavier 
limits. It seems like more people say it would be less safe. It 
would be better for the environment to have fewer trucks and so 
forth. Can either of you express an opinion as to whether the 
good outweighs the bad, since you are two of our highest 
officials in regard to our highways?
    Mr. Paniati. I think you would have to take a look at a 
specific proposal and evaluate that proposal from all 
dimensions, because a higher weight, for example, could have 
impacts on the service life of the pavements and bridges; it 
could have some safety impacts. But it depends on what weight 
you are establishing as to those impacts, and also the economic 
gains from moving to those weight limits. So we would 
certainly, as I indicated earlier, be prepared to provide 
technical assistance on any specific proposal, but we would 
need to look at the specific proposal to be able to evaluate 
it.
    Mr. Duncan. I understand we have got to weigh all that, but 
at this point, based on what you know, you really don't have an 
opinion?
    Mr. Paniati. Not without seeing a specific proposal. We do 
believe that it is time to look at the potential for some 
changes, given the growth in freight that we have seen and some 
of the data that exists out there with regard to the operation 
of longer combination vehicles and others, but I wouldn't be 
prepared to comment without being able to look at a specific 
proposal.
    Mr. Duncan. Do you have an opinion, Mr. Quade?
    Mr. Quade. I would just echo what Mr. Paniati has said, 
that it is a complex situation that requires a lot of study.
    Mr. Duncan. All right, thank you very much.
    Mr. DeFazio. My understanding is that the National Highway 
Traffic Safety Administration is working on a tractor stopping 
distance rule, is that correct? Do either of you know?
    Mr. Quade. I am sorry, sir, I do not have knowledge.
    Mr. DeFazio. You don't know about that? Okay. Because my 
question would be if a rule is going to be published about 
tractor stopping distances, I am wondering how that 
accommodates or deals with higher weight trucks. I mean, if we 
are looking at the supposed Federal limit of 80,000 pounds, 
which doesn't really exist, and saying, well, we are going to 
test tractors on an 80,000 pound truck and we are going to set 
a mandatory stopping distance--and I don't know what new 
technologies or what they are looking at in terms of whether it 
sort of like ABS systems on cars or what they are going to do; 
I have no idea what you guys are proposing.
    But I am wondering how they deal with the potential for the 
heavier trucks, because we are going to have testimony in the 
next panel that says 100,000 pound truck takes 25 percent 
longer to stop than a 80,000 pound truck, and I was wondering 
how the rule might deal with that. If there is any information 
that could be provided regarding the rule and how it is going 
to accommodate different weights in terms of mandating stopping 
distances, that would be of interest.
    Okay, if there are no other questions,--there is no one 
else here--with that, I will thank the panel for their 
testimony and move on to the next panel.
    Okay, this panel is composed of seven people, and again I 
will just say to the panel we have your testimony; it has been 
read and digested, and any departure from reading a prepared 
statement which addresses some of the issues and concerns that 
you have heard here today would be helpful. With that, you will 
each have five minutes.
    First will be Mr. Vincent Brezinsky, Driver, with the 
International Brotherhood of Teamsters.
    And the order is alphabetical, if you didn't notice.
    Mr. Brezinsky.

     TESTIMONY OF VINCENT BREZINSKY, DRIVER, INTERNATIONAL 
BROTHERHOOD OF TEAMSTERS LOCAL 745, DALLAS, TX; TOM CARPENTER, 
DIRECTOR OF TRANSPORTATION, GLOBAL SUPPLY CHAIN, INTERNATIONAL 
PAPER; GERALD A. DONALDSON, SENIOR RESEARCH DIRECTOR, ADVOCATES 
FOR HIGHWAY AND AUTO SAFETY; BILL FARRELL, INDEPENDENT DRIVER, 
 OWNER-OPERATOR INDEPENDENT DRIVERS ASSOCIATION; CAPTAIN JOHN 
 HARRISON, PRESIDENT, COMMERCIAL VEHICLE SAFETY ALLIANCE; MIKE 
SMID, PRESIDENT AND CEO, YRC NORTH AMERICAN TRANSPORTATION; AND 
MIKE SPRADLING, PRESIDENT, OKLAHOMA FARM BUREAU, AMERICAN FARM 
                             BUREAU

    Mr. Brezinsky. Thank you, Mr. Chairman, Members of the 
Subcommittee. My name is Vincent Brezinsky. I have been a long-
haul driver for approximately 31 years, having logged just 
short of two million miles driving a variety of commercial 
motor vehicles, including doubles and triples. I have driven in 
various parts of the Country, including the Northeast and, more 
recently, the Midwest and Southwest, working for Roadway. 
Currently, I drive from Dallas, Texas to Springfield, Missouri, 
a run of 432 miles. Out of the six tours I drive per week, four 
are usually driving doubles.
    While I am a member of Teamsters Local 745 in Dallas, 
Texas, I am here today representing the 1.4 million members of 
the International Brotherhood of Teamsters and, in particular, 
the approximately 600,000 members who drive trucks on America's 
interstates, State highways, and city roads. About 140,000 
drive tractor trailers, including doubles and triples. By far, 
we have a very good safety record and our Teamsters members 
have the protection of the Union if a driver refuses to drive 
any vehicle that does not conform to the current truck size and 
weight limitations.
    The Teamsters Union sees no reason to increase the truck 
size and weight. I think it is important that you hear from a 
driver's perspective the unique challenges of operating longer 
and heavier vehicles. Greater alertness is required when 
operating heavy trucks because there is less margin for error. 
For example, total length stopping distance for an 80,000 pound 
truck traveling at 55 miles an hour is 335 feet, compared to 
225 feet for a passenger car. It is extremely difficult to 
judge these distances in congested traffic. It is also 
extremely difficult to get a tractor trailer up to highway 
speed in the merge lanes that currently exist. It would be even 
more difficult to perform that feat with a heavier and/or 
longer truck.
    Most ramps are not built for LCVs. Trailers are too long to 
make the kind of turns that are required. You have seen all the 
tire marks on the concrete barriers on the exit ramps.
    Keeping track of automobiles traveling alongside our rigs 
is challenging. The no-zone area or blind spot, the area where 
a car is not in sight of the truck driver's side view mirrors, 
substantially increases with longer vehicles. I drive a 62 mile 
an hour unit in a 70 to 75 mile per hour speed limit area, and 
sometimes the impatience of smaller, faster vehicles is 
problematic. As I try to overtake a slower vehicle and get a 
safe distance from that vehicle to return to the slow lane, 
these vehicles try to get around your right-hand side before I 
can maneuver back. I have to check my mirrors every three to 
five seconds.
    It takes 9,600 cars to cause the same road damage as one 
80,000 pound truck. In West Texas, in some areas of Interstate 
20, road construction crews are constantly repairing the 
highway due to tire ruts in the roads from 18-wheelers. It 
makes my truck hard to control, especially double trailers. 
Weather conditions such as rain or high winds make it even more 
difficult.
    Some claim an increase in truck size and weight will mean 
fewer trucks, fewer trips, and fewer miles traveled on our 
highways, but history does not bear that out. According to the 
Federal Motor Carrier Safety Administration, over the past 20 
years, there has been a 49 percent increase in registered large 
trucks and a 76 percent increase in miles traveled. Trips 
continue to increase because of just-in-time delivery and the 
number of trucks on U.S. highways has steadily increased, even 
after increases in both size and weight of large trucks. 
Further increases could actually lead to even more traffic as 
lower shipping rates due to increased sizes and weights could 
result in diverting freight from other modes of transportation. 
That might sound good for increasing the Teamsters Union 
membership, but let me tell you our highways are overused and 
heavily congested, resulting in constant delays and longer 
travel times.
    I would like to address the saving fuel myth of heavier 
trucks. As the trucks get heavier, more fuel is used. Heavier 
loads require more horsepower, and the low sulfur fuel used 
today doesn't provide the same pulling power or takeoff power 
in today's truck engines. On some of the newer tractors, the 
computer can sense the need for more horsepower, and more fuel 
is used in order to get it. So increasing the weight will 
result in even more fuel usage.
    Currently, both Mexico and Canada permit heavier trucks. 
The weight limit on Canadian trucks is generally 137,850, which 
is 70 percent heavier than the U.S. limit of 80,000 on the 
interstate highways. In Mexico, the federal government sets a 
standard of 106,900 pounds, but there is little or no 
enforcement. I have had some problems with overloaded trailers 
coming from Mexico to our Laredo terminal. For example, I had a 
load of tire tread recapping going to Abilene, Texas weighing 
in at 85,000 gross, 5,000 pounds overweight. The company had to 
spend time and money to correct a problem that should have been 
addressed at the border crossing. It makes me wonder how many 
of these units are going north undetected.
    We must insist that Canadian and Mexican trucks adhere to 
our size and weight limits when traveling in the United States, 
and make sure that the proper inspection and enforcement 
mechanisms are in place.
    In summary, the Teamsters Union opposes any changes in the 
current truck size and weight regime. The FMCSA has done an 
inadequate job of enforcing current weight limits on our 
highways. There is strong evidence that most bridge and road 
damage is caused by heavy trucks. There are real safety, 
highway design and operating issues involved in expanding the 
use of heavier trucks and double and triple trailers on the 
national network. Any projected gains in productivity may prove 
to be negligible.
    Finally, the States and the Federal Government lack the 
funds needed to properly repair, maintain, and expand our 
infrastructure to meet the growing transportation needs, let 
alone build onto the reinforced infrastructure necessary to 
operate longer and heavier vehicles on the current system.
    Mr. Chairman, that concludes my testimony. I am happy to 
answer any questions.
    Mr. DeFazio. Thank you.
    With that, we will turn to Mr. Tom Carpenter, Director of 
Transportation, Global Supply Chain, International Paper 
Company.
    Mr. Carpenter. Thank you, Mr. Chairman and Members of the 
Subcommittee. My name is Tom Carpenter, and I am the Director 
of Transportation for International Paper based in our 
headquarters in Memphis, Tennessee. I want to thank you for the 
opportunity to speak on the important issue of truck weight.
    Chairman DeFazio, I agree with your opening comments: the 
current system is broken.
    I want to say that at International Paper safety is our 
number one priority, both for our employees and the communities 
that we serve. In 2008, International Paper will spend well 
over $1 billion on freight transportation, including over 
600,000 truckload shipments. We are fully committed to moving 
these truckload products as safely as possible.
    I am here today not only on behalf of International Paper, 
but also on behalf of the coalition Americans for Safe and 
Efficient Transportation, or ASET. ASET has long sought 
authority to give 6-axle single-trailer vehicles access to 
interstate highways for loads up to 97,000 pounds.
    There are many reasons why there is a need now to begin to 
lift the Federal freeze on truck weights. These include 
skyrocketing diesel fuel prices, a tripling of highway 
congestion since 1982, increased operating costs from new 
regulatory requirements, and a steady tightening of the supply 
of qualified drivers.
    While the trucking industry faces steadily escalating 
costs, inevitably these costs are borne by consumers. More 
money for diesel fuel, combined with the congestion and 
shortage of drivers ultimately leads to higher cost for 
products once they hit the store shelves. This is why we are 
supporting an effort to couple improvements in trucking 
efficiency through higher weight limits with improvements to 
the safety of the truck fleet through the addition of a third 
axle on single-trailer vehicles. Allowing 3-axle trailers the 
ability to carry heavier loads will improve industry 
efficiency, reduce fuel use and carbon emissions, and reduce 
the total amount of weight carried on our highways. All of this 
serves to reduce the total vehicle miles traveled by trucks 
which should serve to reduce the number of highway accidents.
    Let me give you a specific example of how we think raising 
the weight limit in tandem with the addition of a third trailer 
axle will be a win-win for shippers, truckers and the commuting 
public. Taking just one of my paper mills in Alabama as an 
example, we ran some numbers that we think are compelling 
enough for this Committee.
    Each week, we ship about 600 fully loaded trucks from our 
mill in Courtland, Alabama. These trucks travel an average of 
628 miles one way and travel most of that distance on the 
interstate highways.
    If the weight limit is increased to 97,000 pounds, we could 
increase the weight of the cargo on each truck from 45,000 
pounds to almost 60,000 pounds. International Paper could then 
transport the 27 million pounds of paper we ship from 
Courtland, Alabama to our customers each week on 450 trucks 
instead of the 600 that we are currently shipping.
    Here is why this is critically important: 150 fewer trucks 
on the road driving 628 miles one way results in a reduction in 
94,000 vehicle miles traveled each week. With fuel today 
costing 77 cents per mile, the fuel savings would be close to 
$73,000 per week with a reduction in CO2 emissions each week of 
130,000 pounds.
    Perhaps, most startling is the total weight reduction 
achieved each week on the roads and bridges between Courtland 
and these destinations of 5,250,000 pounds per week. This has 
got to be of long-term benefit to our infrastructure.
    Another key reason for the need to lift the freeze on truck 
weights is our dependence on fossil fuels and the greenhouse 
gases that are emitted into the air from trucks.
    When the DOT looked at this issue, they looked at our 
97,000 pound proposal and found that it would reduce vehicle 
miles traveled by 11 percent and fuel usage by 6 percent across 
the United States. That would mean annual savings of 
approximately 1.9 billion gallons of diesel fuel, resulting in 
a decrease of 6.5 million tons of criteria pollutants and 43 
billion pounds of carbon emissions.
    However, because we recognize the need to improve our 
transportation infrastructure, particularly in bridge 
reinforcements, International Paper along with the ASET 
Coalition would be willing to support an increase in the 
highway user fee tax for six-axle trucks seeking to carry the 
heavier loads. We recognize that it is time to pay to play, and 
we are prepared to do so.
    Mr. Chairman and Members of this Committee, in conclusion, 
our goal is to improve trucking efficiency and create a safer 
highway transportation system all at the same time. We are 
willing to work with the Members of this Committee on any 
reasonable proposal to advance this issue.
    While we believe there is an urgent need to act on this 
issue today, we would certainly be willing to discuss any 
number of ways to phase in this effort provide additional 
testing through the implementation of pilot programs. We stand 
ready to assist you in this effort in any way that we can.
    I appreciate this opportunity to share my views and would 
welcome any questions that you might have. Thank you.
    Mr. DeFazio. Thank you.
    Mr. Gerald Donaldson, Senior Research Director, Advocates 
for Highway and Auto Safety.
    Mr. Donaldson. Thank you, Mr. Chairman. Good morning to you 
and the Members of the Subcommittee on Highways and Transit.
    I am Gerald Donaldson, Senior Research Director for 
Advocates for Highway and Auto Safety.
    Congress and the American people stand at a crossroads 
today. If Congress allows more, bigger, longer and heavier 
trucks, American families will pay with their lives and their 
wallets. Each year, about 5,000 people are killed and more than 
110,000 are injured in large truck crashes, a figure that has 
scarcely changed in many years.
    Truck crashes are very expensive, are fatal and cost $3.6 
million. The total cost to the United States every year is a 
staggering $41.5 billion for fatal truck crashes.
    The American public has said they don't want bigger trucks. 
It has said it over and over. Our recent poll done in May 
showed two-thirds of Americans opposed to increasing truck 
sizes and weights, and more than four out of five people 
interviewed said specifically they didn't want more LCVs to 
operate on their roads.
    Allowing trucks to get bigger and heavier will only produce 
more crashes, more deaths and more injuries. They are harder to 
control, they take longer to stop, and they can have more 
severe crashes.
    In respect of the comments we have had here today from 
several of the witnesses and exchanges with Members, I would 
like to emphasize the fact that it is pretty well documented 
for the past 35 to 40 years that no increases in truck sizes 
and weights have ever resulted in fewer trucks on the road. 
Each time there was an increase in truck size and weight 
through Federal legislation and to the extent that States would 
increase truck sizes and weight by using their discretion under 
their grandfather rights and the accordance of special permits, 
there were more trucks that were bigger and heavier than ever 
before.
    I would like to see if I can harvest some of those extra 
points that Chairman DeFazio said instead of going on 
breathlessly reading an oral statement. So let me cut to what 
he asked for which is what we need to do for the future, which 
I think is very crucial.
    First, I want to emphasize that Chairman Oberstar's remarks 
at the very start of this hearing are absolutely fundamental, 
and I need to stress them again.
    Whatever we do here and whatever Congress does have to have 
safety as its ultimate rationale. That is the absolute 
foundation of both motor carrier safety and for truck size and 
weight increases. Those two things are absolutely crucial.
    We have, however, attempted to be able to make Congress 
move toward increased truck sizes and weights. We have a group, 
Americans for Efficient and Safe Transportation, ASET, seeking 
congressional approval to allow 97,000 pound trucks in 6 
States: Georgia, Maine, Minnesota, South Carolina, Texas and 
Wisconsin.
    Those six States had one-fifth of all the large fatal truck 
crashes in the United States last year, and they face serious 
highway shortfalls.
    First, what should Congress do?
    Congress, first of all, has the power to stop any pilot 
programs or State option programs like the one that is being 
recommended by ASET, particularly when they threaten public 
safety and place more pressure on our crumbling infrastructure. 
Congress has to respond with a resounding no to shipping and 
trucking interests seeking size and weight increases.
    Congress should never thaw the LCV freeze. It works. It has 
stopped the diversion of giant double and triple-trailer trucks 
to more of our lower class roads. It has been one of the 
greatest lifesaving and motor carrier safety measures ever 
enacted by Congress.
    Congress should also enact the proposed legislation that 
was introduced by Congressman James McGovern, H.R. 3929. Both 
Congressman Oberstar and Congressman DeFazio emphasized the 
fact that we have a system that is badly broken.
    Congressman Oberstar's locution, as I remember, was a 
patchwork quilt.
    I want to go even one better. It is not just a patchwork 
quilt. It is a crazy quilt, and there is no way to reconcile 
the type of deviation from State to State, the different 
practices in terms of permitting, the different interpretations 
of grandfather rights that we have out there now, and to be 
able to have Congress respond to this as being a rationale 
scheme that they can improve on.
    We can't tinker with it. It has to be changed. Congressman 
McGovern's proposal is to start over with a blank slate. Let's 
get rid of the grandfather rights. Let's get rid of the special 
permitting abuses that are being used right now in an 
exploitative way.
    It is a spoils system. It is used to divide and conquer 
State by State to get ratcheted-up sizes and weights.
    Congress has to stop the uncontrolled use of overweight 
permits granted by the States including the permits for 
divisible loads that the States are treating as nondivisible 
loads.
    Congress spoke very clearly about what they said a 
divisible load should be, and that is being honored more in the 
briefs than in reality. The States are easily and frequently 
granting loads that are inherently divisible, nondivisible load 
permits.
    Congress has to get tough. It has to get tough on unsafe 
trucking practices by restoring FHWA's enforcement powers over 
truck size and weight practices. Those were undermined by the 
1982 Surface Transportation Assistance Act with four little 
words, which the State determines, and that allowed the States 
to interpret their own grandfather rights and to accord 
themselves their own permitting practices, and the result has 
been an explosion in overweight trucks and excessive 
permitting.
    Lastly, Congress should adopt the wise recommendations of 
the National Transportation Policy and Revenue Commission's 
report, Transportation for Tomorrow. That report had 
superlative insight into the crisis in American infrastructure 
funding and the need for us to be able to redouble our efforts 
to bring us back to the level of greatness that we once had in 
this Country for our highways and bridges.
    For the very first time, we need to restore actual user fee 
equity to the system. Big trucks dramatically underpay their 
fair share for the use of our roads and bridges, and we have to 
reestablish user fee equity. This report tells us how to do it, 
including the use of weight distance taxes which Oregon has not 
only pioneered but also successfully resisted numerous attempts 
to overthrow that successful system in the State.
    Thank you for this important opportunity to address the 
Subcommittee on this crucial safety and infrastructure 
protection issue.
    Mr. DeFazio. Thank you, Mr. Donaldson.
    Mr. Bill Farrell, independent driver from the Owner-
Operator Independent Drivers Association.
    Mr. Farrell. Good morning. My name is Bill Farrell. I have 
been involved with the trucking industry for the better part of 
four decades. As a driver, I have logged well over two million 
miles without a chargeable accident.
    I have also owned and managed a small fleet of trucks, and 
I am currently driving one of my units, and I employ drivers 
for my other six trucks. I have been an active member of OOIDA 
for more than 32 years.
    On average, OOIDA members operate their vehicles well over 
100,000 miles on this Nation's highways each year. 
Unquestionably, they have the most at stake when it comes to 
highway safety. Their lives and livelihoods literally depend on 
it.
    Truckers such as OOIDA members know from firsthand 
experience that further increases in size and weights of 
commercial motor vehicles can endanger highway users and hasten 
the deterioration of our Nation's roads and bridges. As such, 
OOIDA has long been an opponent of increases to Federal truck 
size and weight standards.
    Advocates of increased size and weight limits point to 
productivity and environmental benefits that are allegedly 
associated with larger vehicles. They ignore both the safety 
risk and the added strain on highway infrastructure that these 
vehicles present. These factors more than offset any 
theoretical productivity or environmental gains.
    Stability, mobility and maneuverability are substantially 
reduced on bigger and heavier trucks. Specifically, heavier 
weight adversely affects vehicle performance, increases 
stopping distance, exacerbates brake fade on downgrades and 
slows the vehicle's ascents on hills. In many cases, the center 
of gravity rises in correspondence with heavier allowable 
weight limits, increasing the risk of vehicle rollover.
    For these and other reasons, allowing increases to Federal 
size and weight limitations would seriously jeopardize the 
safety of commercial drivers and the motoring public.
    Increasing truck size and weights would also accelerate the 
deterioration of the Nation's highways and bridges. As the size 
of vehicles increase, the number of highways and bridges that 
are designed to accommodate them become fewer.
    If sizes and weights are increased, many routes as well as 
pickup and delivery points will become totally inaccessible 
without substantial costly upgrades to accommodate vehicles 
larger or heavier than currently allowed under Federal rules.
    The type of configuration currently being advocated by 
proponents of heavier trucks, 97,000 pounds gross weight on 6 
axles, presents a serious handling issue due to the fact that 
adding a third axle to the trailer will increase the maximum 
allowable trailer weight to 51,000 pounds compared to 34,000 to 
40,000 pounds now.
    The trailer weight would then exceed the allowable weight 
of 46,000 pounds on the tractor, creating a dangerous kinetic 
force that could easily push the tractor out of control when 
attempting to stop on icy, snowy or wet road surfaces. Add to 
that, descending a steep mountain grade in the same conditions, 
and even an experienced driver will surely be challenged to 
keep the vehicle under control.
    Additional axle combinations that would be necessary with 
weight increases would increase the damage to road surfaces 
relating to scuffing. This is a phenomenon associated with 
certain axle configurations where the vehicle's tires drag 
across the road surface when turning.
    Scuffing is most prevalent in configurations where a 
trailer is equipped with a group of three or more axles such as 
the type of configuration currently being advocated. Scuffing 
is especially damaging in hot weather, a condition under which 
one can actually see the pavement buckle and roll up under 
stress.
    Increases to allowable weight standards would also hasten 
the deterioration of trucking equipment. While these issues may 
not be of great concern to large corporate motor carriers who 
turn over their equipment on a regular basis, it would 
correspond to a significant cost increase for the small 
business truckers that comprise the vast majority of the U.S. 
trucking industry.
    Furthermore, the increased wear in equipment is not only a 
costly issue but also represents another serious safety 
concern.
    If truck size and weight restrictions are set aside, a 
select few shippers may benefit. However, it is highly doubtful 
that the public would gain any economic relief or environmental 
benefit from those shippers' ability to utilize large vehicles.
    Short-term, limited economic benefits enjoyed by a few 
would pale in comparison to the increased cost associated with 
loss of life and property, accelerated deterioration of 
equipment and the highway system, and developing, implementing 
and complying with the inevitable imposition of new rules and 
operational restrictions.
    Unfortunately, if weights are increased, efficiency in the 
trucking industry would likely be lost, not gained.
    Thank you again, Chairman DeFazio and Congressman Duncan, 
for the opportunity to testify before this Subcommittee. I 
would be happy to answer any questions.
    Mr. DeFazio. Thank you.
    Ms. Fallin. Okay. Well, thank you, Mr. Chairman. I 
appreciate that.
    I hate to run, but I have been sitting here for a couple of 
hours, and I have to run to a lunch meeting.
    But I have a special guest in from Oklahoma, Mr. Spradling, 
who is with the Oklahoma Farm Bureau, and he is going to visit 
with us about truck weight limits and especially as it relates 
to our rural farmers and the commercial vehicle licenses and 
some of the challenges that we have faced with getting our 
products to market, some of the rural areas. I hated to leave 
right before he testified, but I wanted just to welcome him and 
say thank you so much for coming today.
    Mr. Chairman, whenever it is appropriate for him to speak, 
I would appreciate that.
    Mr. DeFazio. Sure. We have no particular order, so he could 
go now. That was a good introduction.
    Go right ahead.
    Mr. Spradling. Mr. Chairman, thank you very much for the 
variance here, and thank you, Congresswoman.
    I am Mike Spradling, President of the Oklahoma Farm Bureau 
Federation. I am here today on behalf of the American Farm 
Bureau Federation, a grassroots organization representing a 
diverse range of agriculture producers from all 50 States and 
Puerto Rico.
    My wife and I operate a cattle and pecan operation near 
Sand Springs in Tulsa County, Oklahoma.
    The Farm Bureau appreciates the opportunity to share the 
impact that truck weight limits imposed by the Safe, 
Accountable, Flexible and Efficient Transportation Equity Act, 
known as SAFETEA, and the Federal Motor Carrier Safety 
Regulations are having on farmers and ranchers hauling their 
own products to market.
    While Farm Bureau recommends changes in the FMCSA's rules, 
we are in no way seeking to relieve farmers of the obligation 
to operate their farm vehicles in a safe manner or maintain 
those vehicles in a safe working order. However, several 
factors make it difficult for small farmers and ranchers to get 
their products to market.
    Concentration within the agriculture industry has reduced 
the number of grain elevators, cotton gins and livestock 
markets, forcing farmers and ranchers to drive longer distances 
often across State lines to sell their commodities.
    DOT's decision to define a commercial motor vehicle at its 
lowest weight, authorized by SAFETEA, has created an impossible 
threshold for farmers and ranchers to legally transport their 
goods.
    Farm Bureau believes that the DOT already has the authority 
to address two issues by increasing the CMV weight limit of 
26,001 pounds and creating a uniform system of rules. Despite 
numerous contacts with FMCSA describing the hardships imposed 
by the agency's decisions, no relief has been granted. 
Therefore, we need your help.
    SAFETEA got DOT some flexibility in defining the weight 
requirements for CMVs, yet they chose to define CMV as a 
vehicle with a gross vehicle weight rating or gross combined 
weight rating of 10,001 pounds or more.
    While 10,001 pounds sounds like it would apply to a large 
commercial vehicle, the truth is it takes very little to reach 
that threshold. For instance, a heavy-duty pickup truck can 
often exceed the 10,001 pound weight limit.
    Under those same regulations, a State may exempt the CMVs 
up to 26,001 pounds if the vehicle is engaged solely in 
intrastate commerce. For many farmers and ranchers, the closest 
market, grain elevator, port or cotton gin is just over the 
State line. Under current regulation, crossing State lines 
changes the classification from intrastate carrier to 
interstate carrier, triggering the requirements such as the 
need for a commercial driver's license.
    Establishing a national threshold with 26,001 pounds would 
eliminate the inconsistent and confusing system currently in 
place and free small farmers and ranchers from regulation. The 
only true solution that will relieve agriculture producers from 
burdensome regulation is to increase weight limits for farmers 
and ranchers hauling their own commodities in their own 
vehicles.
    The following three suggestions, while not enough, would 
provide relief for some farmers and ranchers and could be 
accomplished in the short term:
    Farm Bureau believes that there are legitimate reasons to 
raise the weight limits for farm trucks above the 26,001 
pounds. One partial solution is to raise the weight limit for 
CMVs to at least 26,001 pounds as provided in the H.R. 3098, 
the Boren-Aderholt-Fallin Bill. Again, this will help some, but 
it will not eliminate the issues for everyone.
    Congress granted FMCSA the ability to devise a workable 
definition that would not impede commerce. The agency has 
refused to consider this flexibility.
    A second partial solution is for Congress to require FMCSA 
to exempt border crossings between States with similar weight 
restrictions for farmers and ranchers hauling their own goods. 
If States have compatible CMV definition, it makes no sense to 
add another definition.
    The Farm Bureau has heard the argument that it would allow 
some unscrupulous operators to put together cross-country truck 
routes. However, we propose this option only for farmers and 
ranchers transporting their own goods.
    Thirdly, the regulators created some exemptions for farmers 
and ranchers hauling their own goods within a 150 air mile 
radius of their own farms. For many farmers and ranchers, a 
State line lies within a 150 air mile radius.
    A third partial solution is to provide an exemption for the 
CMVs for farmers who cross State lines within prescribed 
radius. However, the situation is less than ideal because it 
would be difficult for law enforcement to determine which 
farmers are in compliance.
    Farm Bureau appreciates the time and attention you have 
given to hearing about problems caused for farmers and ranchers 
by the FMCSA's definition and enforcement of the CMV provision 
of SAFETEA. Farmers and ranchers hauling their own goods to 
market across relatively short distances should not be captured 
by regulations intended for commercial long-haul drivers.
    I want to thank you very much for this opportunity to 
present testimony today, and I look forward to your questions.
    Mr. DeFazio. Thank you.
    Since you have to leave, do you have a question you want to 
direct to him of any sort? Just go ahead.
    Ms. Fallin. Thank you, Mr. Chairman. I appreciate your 
working with me.
    I do have one question. In the previous panel where we had 
testimony about weight limits and were talking about, of 
course, the larger commercial weight limits, I asked the 
regulatory side if, based upon this issue that we are dealing 
with on farm trucks and weight limits and the interstate, if we 
increased the weight limits on the farm trucks, if there would 
be any safety hazards for that.
    The gentleman stated that he had statistical data that said 
that farm trucks do have a lot of accidents and that he didn't 
think it would be wise, if I understood him.
    So have you tracked any type of safety numbers as it 
relates to just the pickup trucks driving with a load behind 
them and doing the short hauls, just the producers taking their 
own goods within the communities or even if it is across the 
Oklahoma panhandle to another State?
    Have you seen higher incidents of safety issues compared to 
even regular motor vehicles?
    Mr. Spradling. Congresswoman, certainly, I do not have 
those statistics, and I would be anxious to see them as well 
when they do provide those.
    Certainly, though, in our written testimony and in the oral 
testimony, as I mentioned here earlier, we are in no way asking 
for an exemption on safety of the vehicle, for the vehicle or 
the driver. So we feel that the vehicle certainly has to meet 
the safety requirements, and the driver has to be capable and 
healthy in order to operate that vehicle.
    Ms. Fallin. Good. All right. Well, I did ask him for those 
statistics. So, hopefully, he will get them to me.
    Mr. DeFazio. They would be of interest to the Committee. So 
that would be good. Thank you.
    Okay. Now we will return to Captain Harrison, the President 
of the Commercial Vehicle Safety Alliance.
    Mr. Harrison. Good afternoon, Chairman DeFazio, Ranking 
Member Representative Duncan and Members of the Subcommittee.
    I am John Harrison, President of the Commercial Vehicle 
Safety Alliance and also a captain with the Georgia Department 
of Public Safety.
    CVSA is basically an association of all the enforcement 
agencies in North America that does commercial vehicle safety 
enforcement as well as size and weight enforcement.
    In my testimony today, I will discuss enforcement and 
safety issues relating to existing truck size and weight 
regulations as well as offer some of our views on a path 
forward.
    Traditionally, the enforcement aspects of truck size and 
weight have been viewed through the prism of infrastructure 
protection and preservation. CVSA believes more emphasis needs 
to be placed on the safety performance of vehicles, drivers and 
motor carriers who operate larger vehicles and, more 
specifically and importantly, those who choose to violate the 
law and operate vehicles in excess of the size and weight 
limitations.
    From 2005 to 2007, there were 892,000 commercial vehicle 
size and weight violations cited by roadside inspectors where a 
subsequent safety inspection was completed. This number 
represents 13.3 percent of the total number of violations cited 
during the driver inspections over this time period and ranks 
number 2 on the list in terms of most often cited violations.
    What is not known is how or if these data correlate with 
other motor carrier driver and vehicle safety performance 
problems in crashes. Through our members' experience, we 
believe it does.
    Before any significant decisions are made to modify truck 
size and weight limitations, we believe there needs to be a 
better understanding of the efficacy of the enforcement regime 
and, more importantly, if there is a correlation of oversize, 
overweight vehicles and their performance with increased crash 
risk and consequences.
    In our written testimony, we have identified several 
specific safety issues that would concern us with respect to 
increasing size and weights. In addition to the safety issues, 
there must be adequate resources made available to the 
enforcement agencies, so they are able to monitor compliance 
and take enforcement action when warranted.
    The FHWA has safety as a core component of its mission, and 
we want to make sure that it remains so, that it remains a part 
of its truck size and weight program.
    It is our firm belief that oversize and overweight vehicles 
present safety hazards on our roadways.
    We believe if a FHWA is able to establish a stronger safety 
nexus to size and weight enforcement, it will help the State 
enforcement agencies make their case for receiving their full 
measure of support and resources, both State and Federal 
funding, for the State Departments of Transportation to carry 
out their enforcement efforts.
    We believe there needs to be a stronger Federal role in 
facilitating a framework for research, policy and performance-
based regulations and the enforcement of truck size and weight 
operations on the interstate portion of the National Highway 
System.
    We also believe more study needs to be completed on the 
non-interstate portions of the National Highway System. The 
larger truck-related crash data indicate that a larger portion 
of fatality crashes are occurring on non-interstates. 
Consequently, there is a gradual shift of enforcement resources 
to non-interstates.
    In addition, many States are deploying virtual weigh 
stations to help expand their enforcement footprint. These 
technologies allow for the unmanned identification, monitoring 
and weighing of commercial vehicles. This practice should be 
encouraged and supported at the Federal level.
    One of the largest challenges that exists in truck size and 
weight policies and regulation is the lack of uniformity from 
State to State and sometimes even within States. In addition, 
there are a variety of exemptions and special permits all 
across the Country.
    Except for the 1991 long combination vehicle freeze, there 
has been no significant change in Federal size and weight laws 
since 1982. However, there have been many changes in freight 
movement and enforcement capabilities.
    In addition, there has been a tremendous movement in 
adoption of technology in industry and government, data 
availability, analytical capabilities and performance-based 
programs.
    It is clear that we need a more comprehensive approach in 
the United States to truck size and weight policy, and we must 
gain a better understanding of the true impacts that truck size 
and weight have to all aspects of our transportation system.
    We support the recommendation in TRB Special Report Number 
267 which discusses the creation of a Commercial Traffic 
Effects Institute.
    One of the actions we believe the CTEI would consider or 
could consider is the development of a framework for a 
federally-supervised, State-administered, performance-based 
oversize and overweight program for the operation of heavier 
and larger vehicles. In our written testimony, we have provided 
more details and identified a TRB concept paper on this issue 
that could serve as a launching point.
    With respect to a pilot study recommendation in TRB Report 
267, we would support this concept, but a number of factors 
need to be considered. In our written testimony, we outline 18 
points. In summary, it centers around a science-based study 
design, performance metrics and instrumentation to measure 
safety and infrastructure impacts, limitations on sections of 
road or other operational limitations, and adequate resources.
    To summarize, we believe this approach needs to be more 
performance-based and scientific-based and ask you not to look 
at this as a short-term legislative fix. It needs to be studied 
more, and we need to look at how it is going to affect the safe 
operation of vehicles before we allow this to be higher.
    CVSA is not necessarily against higher weights. We just 
want it to be done safely.
    Thank you.
    Mr. DeFazio. Thank you.
    And our last would be Mr. Mike Smid, President and CEO, YRC 
North American Transportation.
    Mr. Smid. Thank you, Mr. Chairman. Thank you, Members of 
Congress, for the opportunity to testify on this important 
issue.
    I have submitted a written document, so we will stray away 
from the written and try to provide some information as it 
relates to the operation of this equipment, some of the 
statistical information that we have become aware of and 
certainly represent the ATA and YRCW in this proceeding.
    I do represent YRCW as well. I manage a $9 billion entity 
called YRC North America. The names you might mention are 
Yellow, Roadway, Holland, Reddaway, New Penn, Reimer, and Glen 
Moore.
    In all, approximately 66,000 professionals are part of our 
company. They operate more than 130,000 pieces of equipment 
between 750 facilities, fixed facilities and fixed networks. We 
handle approximately 150,000 shipments a day.
    On average, our employees have been with us for 20 years, 
20 years plus. On average, they have driven more than one 
million miles without incident or accident. The turnover rate 
is in the area of 4 percent on an annual basis primarily due to 
retirement.
    The business is primarily LTL consolidation of many 
shipments in order to create a load or in order to create 
movement across a geographic region.
    We interface with all modes of transportation. It is not an 
either-or. We actually purchase more than 400 million miles a 
year of rail transportation where we put trailers on trains.
    Our operating concern and our overall concern as an 
industry really fall in a couple of areas:
    Economic, providing a competitive supply chain to compete 
in a world market;
    Environmental, the issue of fuel and emissions;
    The issue of safety, safety concerns regarding congestion 
and regarding safe operation of equipment;
    Drivers, projections for drivers and available drivers as 
near as the next 5 years show a shortage of as many as 40,000 
in order to keep the supply chain moving.
    All other modes of transportation have advanced. Ships have 
become bigger. They haul more containers. Airplanes have become 
bigger. They haul more freight. Trains have created bigger or 
the railroads have developed larger rail cars, articulated flat 
cars to haul multiple containers in one group.
    The current freeze threatens operation in a number of 
States. There are literally freeze issues that can require us 
to retain older equipment for a longer cycle because of some of 
the length issues in individual States, the issues that have 
been testified toward earlier in the State of Maine.
    Some of the simple math that we have been involved with 
really shows that each time a long unit combination is created, 
it is half the number of trucks on the road. Each time or every 
two times a triple unit is created, it is one unit less on the 
highway.
    YRC operates approximately 1.8 billion miles over this 
Nation's highways in the course of a year. We consume close to 
300 million gallons of fuel.
    We also, though, in the course of that, given the patchwork 
availability of LCV type regulations, operate approximately 35 
million miles a year of longer combination vehicles, primarily 
triples. There are some longer doubles combinations as well.
    In the course of that time frame, with that 35 million 
miles, there is a savings of almost 10 million gallons of fuel, 
117,000 tons of carbon emissions and almost 20,000 individual 
trips that would have created another driver, another trip, 
another load on the highway.
    The average fuel consumption for a set of triples is 5.07 
miles per gallon. For a common unit or a current unit, 5.86, 
almost 30 percent or 50 percent more volume without the cost.
    In our 3.5 years, the most current 3.5 years of history, 
accident rate or DOT reportable rate for all units, 0.463. 
Reportable rate for LCVs, 0.306, almost a 30 percent better 
record for longer combination vehicles.
    There is a reason for that. These are drivers with the best 
records, additional training. The operations are on limited 
highways, very specific highways equipped and authorized for 
longer combination vehicle use.
    Weather situations require elimination of longer 
combination vehicles. Not all carriers, not all drivers, not 
all equipment is qualified to be longer combination unit 
qualified. From a cost standpoint and infrastructure 
standpoint, longer units and not all routes have to be adjusted 
in order to account for it.
    An approach that deals with proper routes, proper drivers, 
company responsibility, proper equipment and proper training 
can lead us to a more efficient transportation system. It can 
provide for stronger economic performance, create a better 
outlook through reduced fuel consumption, reduce congestion on 
our highways, and be a much safer operation in the long term.
    Thank you.
    Mr. DeFazio. Thank you. That concludes the testimony.
    I guess I would just ask, and we have varying views on the 
panel here, for anybody to expand upon or discuss some of the 
issues that have been raised.
    We have had issues of scuffing that were raised for a 
particular proposed axle configuration.
    We have issues mentioned by this panel and the previous 
panel of increased stopping distances, safety concerns with the 
heavier trucks.
    We have issues regarding design of on and off ramps, 
turning radius, and use on other than interstate highways.
    Then we have the issues of cost, and Mr. Smid raised the 
issue in terms of you talked about lower shipping costs. We 
certainly want to be a competitive Nation and have lower 
shipping costs, particularly for things that are leaving the 
Country.
    You stated the DOT report found bridge costs would more 
than double under the harmonized scenario, but shipper savings 
would total $2 billion per year. I guess my question is_and it 
raises the whole infrastructure question_if heavier vehicles 
are allowed and there is more wear and tear, scuffing, bridge 
issues, whatever, how would that be paid for?
    I do come from a State, the only State with the weight mile 
tax which I think is a very fair way of assessing costs and 
paying for needed infrastructure, but I know there is also 
extraordinary resistance to that. In fact, people have tried to 
preempt my State in the past.
    So how would we pay for this shipper savings but increased 
cost to the public when we are already in deficit?
    If anybody wants to address any of those issues, jump right 
in.
    Mr. Donaldson. I would be glad to jump in.
    Chairman DeFazio, the Transportation of Tomorrow report was 
probably one of the most comprehensive and detailed reports I 
have ever seen on infrastructure impacts in the United States 
because of traffic, including heavy trucks, and the problem 
that we have in the United States of adequately funding our 
surface transportation infrastructure.
    It is not an exaggeration to say that that report said that 
we are absolutely in a crisis. We have insufficient Federal 
funding. We have insufficient State funding. We are falling 
behind.
    In terms of the issues that you ran through there, there is 
an enormous range of topics there that I couldn't possibly 
cover.
    Mr. DeFazio. Well, why don't you just pick out one?
    Mr. Donaldson. But I would like to pick out one, and that 
has to do with an exchange that has gone on between the 
Committee Members and some of the panelists here involving why 
it is that heavy trucks can be so damaging to roads and 
bridges.
    The answer, which I don't think has been brought out, is 
that both pavement damage and bridge damage are governed by 
what we call exponential formula. In respect to pavement, it is 
a formula which was derived from the 1962 AASHTO road test. It 
is what is known as the Fourth Power Law.
    What it means is that when you take an axle, say at 20,000 
pounds, and you just marginally increase the amount of weight 
that it carries--20,000 to 22,000 or 20,000 to 24,000--that 
arithmetic increase is quite small, but the increase in the 
damage to pavement is exponential. It is tremendous.
    If you go from a 20,000 to 24,000-pound axle, you have 
doubled damage to the pavement, and that has been pretty well 
verified through the years.
    Bridges, bridges use what is known as the Minor Third Power 
Fatigue Damage Principle. What that means again is that there 
is an exponential effect as you increase truck weights.
    Given the fact that recent studies, which Chairman Oberstar 
alluded to, conducted by TRB have cast great doubt on the 
tradition of the bridge formula allowing more weight to be 
carried by more axles being under the truck, it is probably 
even more dire now for us to control truck weights on our 
bridges because when you move from an 80,000 to 100,000 pound 
truck, even if you add an additional axle so that you are 
running a six-axle rig rather than a five-axle rig, you have 
dramatically increased bridge damage, and you have done it by 
the third power.
    This is one of the reasons, among others, why we have had 
such a severe accelerated deterioration of bridge structures in 
the United States and, unfortunately, a few of those which have 
become fracture-critical which could reach what we call yield 
point and fail.
    Mr. DeFazio. Okay. Mr. Carpenter?
    Mr. Carpenter. Yes, I would like to clarify a couple of 
points that I think are misunderstood here today.
    On the issue of safety, the number one contributor to 
safety or accidents is total vehicle miles traveled. There is 
the strongest correlation in all of the studies that we have 
seen to date between the total of vehicle miles traveled and 
the number of accidents. So getting trucks off the road, and 
getting fewer vehicle miles traveled, is the number one thing 
that we can do as a Country to reduce accidents.
    The other thing around this heavier weights doing more road 
damage is just simply not true. If you have an 80,000 pound 
truck with 18 wheels, you have 4,444 pounds of weight per tire.
    If you have a 97,000 pound truck with 22 wheels, you have 
4,409 pounds per tire. That truck is going to do less damage to 
the highway than that 80,000 pound vehicle. The key to that is 
adding that third axle increasing the weights.
    The United States is the only industrialized country that I 
am aware of that has total gross vehicle weights under 95,000 
pounds. That is a serious competitive issue for us, 
particularly on exports but also for our domestic traffic.
    Mr. DeFazio. Okay. Anybody else?
    Mr. Farrell. Mr. Chair?
    Mr. DeFazio. Mr. Farrell?
    Mr. Farrell. Yes, sir, I need to comment on this from the 
standpoint of being an everyday operator of a vehicle, and most 
of the testimony that I have heard here today is based on an 
ideal world. It is based on idealistic things that include 
logic and all that stuff. I am going to give you the real world 
part of it as best I can.
    Mr. DeFazio. God forbid the real world should intrude upon 
hallowed halls here, but I would be happy to hear it.
    Mr. Farrell. These assumptions are made that every truck is 
running at 80,000 pounds now. Last week, I hauled a load from 
Kansas City to Spokane that weighed 12,000.
    Probably 50 percent of the loads that we haul, we are 
ordered to have a 53-foot trailer with a capacity of 3,000 
cubic feet, and they use 2,100 cubic feet.
    Raising the weight limit is not going to reduce the amount 
of trucks on the road. You have to fill the capacity up that we 
have already, and we are not doing that as a Nation.
    The other thing that is happening, when you get to the 
safety side of it in the everyday world, is I mentioned 
scuffing but also the safety aspect of handling a truck that is 
heavier in the back on the trailer than it is on the tractor.
    Years ago, some of you will remember an outfit called 
Consolidated Freightways. I am from Montana, so we have a few 
mountain passes as you do in Oregon. Cabbage is one of them and 
Siskiyous and those.
    Back in those days, when you had a single axle tractor 
pulling doubles that had a heavy weight on behind, in the 
wintertime when those tractors got to the bottom of the passes, 
they had a regular wrecker crew sitting there, waiting to pull 
them over the top because when they put chains on they couldn't 
move those tractors anyway. They did not have enough traction.
    That is what you are creating by putting 51,000 pounds 
behind a 46,000 pound tractor.
    Secondly, there is a phenomenon going around the Nation 
right now that they don't like compression brakes on trucks. 
So, at the bottom of a lot of hills, you will see a sign that 
says: Use of compression brakes prohibited, Ordinance Number 
510 or whatever. That ordinance is disregarding the safety 
aspect of an engine brake on a large vehicle.
    You are going to compound that by adding weight to a 
vehicle that the towns and cities are already telling us on the 
off-ramps and stuff, they don't want us using our compression 
brakes.
    Compression brakes are an instant brake. They happen when 
you remove your foot from the throttle and, in the time that 
you move your foot from the throttle to the brake pedal, the 
impetus of that truck is already slowing down before you get to 
the brake pedal.
    So, when you get off on an off-ramp and they tell you, you 
can't use the compression brake and you are adding 19,000 
pounds to that tractor, you are creating a safety problem when 
you get off an off-ramp or when you get on an on-ramp.
    Chairman Oberstar, you have that problem in the City of 
Minneapolis because a lot of those off-ramps are down off of 
the interstate. I have trucked into your city for 40 years. In 
the wintertime, it creates an impossible problem for a truck 
driver to try to make that stop.
    So those are real day things. I can't talk about logic. 
Logic is logic.
    Mr. DeFazio. I assume the objection to, we call them jake 
brakes, is the noise.
    Mr. Farrell. Yes.
    Mr. DeFazio. Has anyone looked at a way to better muffle 
the noise?
    Mr. Farrell. Well, in most cases, if they leave the 
mufflers on the trucks. The noise that you are hearing is 
unmuffled trucks. They have taken the mufflers out.
    Mr. DeFazio. To save fuel?
    Mr. Farrell. Yes, because it is supposed to save them a 
tenth of a mile or a half mile per gallon.
    In my instance, if we want to talk about fuel and cost 
analysis, in my instance, since I started in this trucking 
business in 1976, my average miles per gallon per unit was 
around 4.5. Nowadays--and we haul mostly 80,000 pound loads--it 
is about 5.1 to 5.2.
    We have withstood some substantial Federal increases in 
diesel fuel tax to compensate for things that happened in the 
1970s.
    If you go back and analyze, and I know it is politically 
incorrect or impossible. But if you take the standards that 
were imposed on the trucking industry and the standards that 
were imposed on the cars and the passenger cars, in 1976, we 
had like 13 miles per gallon on a gasoline car. Those standards 
are up closer to 20 now.
    So you cut the gasoline tax for cars in half, and yet you 
have not improved the gasoline tax or the diesel tax for 
trucks. We are still paying the same that we did in 1980 or so.
    Mr. DeFazio. Thank you for helping to support our 
infrastructure. If we had indexed the tax on the automobiles, 
we wouldn't be in the pickle we are in, in terms of lack of 
funding.
    Mr. Farrell. Absolutely.
    Mr. DeFazio. Anybody else? Captain Harrison?
    Mr. Harrison. I am the only enforcement member here, and I 
think the only government representative left. One of the 
things that I want to bring to your attention is whether you 
keep the existing size and weight limits or you increase them, 
you have to have an effective enforcement program to keep 
people honest.
    One of the problems that we have that I wanted to elaborate 
on a little is the Federal Highway Aid money can be used for 
infrastructure improvements as far as building weigh stations, 
lengthening ramps, installing scales, things of that nature, 
but that Federal Aid money cannot be used for salaries. I 
cannot be used for operational costs, even an example of a 
utility bill at a weigh station.
    So we constantly get asked these questions from the public: 
Well, I go by the weigh station, and it seems to be closed all 
the time.
    We don't have the adequate resources in some instances in 
our member jurisdictions to keep them open like they should be 
and also to patrol the side roads. As well, we do safety 
inspections at those weigh stations too. So it is a dual-
pronged process. It is weight enforcement and safety.
    But we have certain limitations on how we use the MCSAP 
money, the Motor Carrier Safety Assistance Program money, for 
size and weight. It is very limited how you use that for size 
and weight, and you can't use the Federal Aid money for 
salaries for weight inspectors.
    So that may be something you would want to look at in 
reauthorization. It might help us out. Thank you.
    Mr. DeFazio. That is a good suggestion. Thank you for that.
    Mr. Smid. Could I jump in?
    Mr. DeFazio. Mr. Smid?
    Mr. Smid. Thank you, Mr. Chairman.
    I think one of the items that gets overlooked in some of 
the discussion is in particular with the longer combination 
vehicles, it is not a situation where all highways, all roads, 
all bridges, all drivers, all trucks apply.
    For the most part and in particular with longer combination 
vehicles, it is very specific routes that aid the 
transcontinental or inter-region movement of goods. There have 
to be highways that are configured and are designed and are 
more current in terms of that type of transportation.
    Drivers have to have a different level of qualification. 
Equipment, including tractors, have to have different 
capabilities or different qualifications.
    If we simply advocate raising the weight or raising the 
capability or quantity that may be pulled by an individual unit 
without requiring changes to that equipment, then in fact you 
do run into situations as was discussed earlier.
    However, with the proper engineering of equipment, testing, 
retesting, qualification of drivers, specific highways, 
understanding of the State as to which of those highways are 
critical in terms of infrastructure and critical in terms of 
supply chain type movement from a commerce standpoint, there 
can be a series of those types of regulation and accommodations 
that provide for an element of a happy medium in some of these 
discussions.
    Mr. DeFazio. Okay. Thank you.
    Anybody else who didn't respond? You don't have to, but 
okay, Mr. Spradling.
    Mr. Spradling. If I could, Mr. Chairman, sitting here 
listening all morning to the weights that we are talking about, 
the 80,000, 100 plus, I am almost embarrassed when I talk about 
the 10,000 to 26,001--and let me emphasize almost.
    Some of the weights we are talking about here, my combined 
weights of our trucks, we are talking about weighing less than 
the tractors that actually pull the trailers which some of the 
other gentlemen here have spoken of.
    I think it is important that we understand Farm Bureau's 
position and that we feel it is very important that our farmers 
and ranchers have an opportunity to have a consistent weight 
limit across the United States to where when we are coming 
across State lines.
    I live in northeast Oklahoma, and certainly we are bordered 
by Arkansas, Kansas and Missouri.
    Our panhandle cohorts out there where they have certainly 
Kansas, Colorado, New Mexico and Texas that they have to deal 
with. Their markets may be just certainly across the State 
line, and they are backed up there with their backs against. It 
is further than 150 air miles to Oklahoma City.
    They have no way legally to get, for them to hook up to 
that pickup that Congresswoman Fallin showed you and put their 
livestock in that trailer and legally get them to their 
markets. Certainly that is our concern here, that the reason we 
feel it is very important that our American farmers have a 
uniform weight limit, and we are looking at the 26,001 pounds.
    Thank you, sir.
    Mr. DeFazio. Okay. Thank you.
    One last quick comment, Mr. Donaldson
    Mr. Donaldson. Just I wanted to respond to both comments 
here, one on the LCVs and the other one on Captain Harrison's 
remarks about enforcement.
    As I recall Mr. Paniati's testimony, it contained a figure 
of 1 percent of overweight trucks which, of course, is a figure 
that boggles the imagination.
    I recall that Captain Harrison's testimony, if I remember 
correctly and he can correct me, the figure of overweight 
trucks that have been detected in the aggregate in the United 
States was 13.7 percent, something under 14 percent.
    We all know that that is a dramatic underestimate of what 
is going on out there. Every good trucker who knows his routes 
knows how to take you from the border of a State to the other 
border of a State and never pass through a fixed weigh station. 
So that data comes preponderantly from fixed weigh stations; to 
a much lesser extent, from weigh in motion scales; and to a 
very small extent, from portable scales.
    So we know that basically we have about one out of every 
three trucks running illegally overweight out on the road, and 
it is a serious enforcement problem. It is one that is being 
displaced more and more to our off-interstate lower class roads 
with their safety problems.
    I brought two photographs with me today which I didn't have 
an opportunity to show with my oral statement. They are 
available if you want to see them. They are two pictures of two 
North Carolina highways with a very long truck which is 
dramatically off-track.
    Mr. DeFazio. They were in your written testimony as I saw 
them previously.
    Mr. Donaldson. Right.
    The other is the longer combination vehicle issue. Longer 
combination vehicles were top growing all the way through the 
eighties until the 1991 LCV freeze.
    What, in fact, happened was not a rationale program of 
trying to make some evaluation of which roads they would be 
better on or worse and what would be the operational 
constraints, the driver training of which there was no 
requirements at all.
    But what happened is that trucking interests went from 
State to State and where they could get a State to expand the 
operation of LCVs out of the type, the configuration, the 
weights of the amount of mileage that they were allowed on is 
why I referred to it earlier in my oral statement as being a 
spoils system. That spoils system was basically growing at a 
pace in an uncontrolled way, and the LCV freeze is what put an 
end to that.
    So what we have out there right now is another crazy quilt, 
a patchwork quilt of operational practices which in many 
instances are not serving safety where we are allowing them to 
operate as of the 1991 freeze.
    Thank you.
    Mr. DeFazio. Okay. Thank you.
    With that, I guess I will turn to Mr. Michaud.
    Mr. Michaud. Thank you very much, Mr. Chairman.
    This is very interesting. Mr. Farrell talked about the real 
world. I am not sure what world he lives in.
    But this here, Mr. Chairman, is my operating license. I 
drove over 28 years, operating a clamp truck that loaded a lot 
of these trucks. I can assure you that by increasing the weight 
limit, you actually can reduce the number of trucks that are on 
the road, having done it all my adult life in the mill.
    I was really interested in Mr. Carpenter's remarks about 
Alabama and being able to reduce the number of trucks. Those 
are staggering statistics.
    If you're familiar with Maine, I worked in the paper 
industry in shipping, loading trucks. Have you done any 
analysis in other States as far as the number of trucks that 
could be taken off the road if the weight limits were increased 
to the 97,000 pounds?
    Mr. Carpenter. Yes. It is a similar proportion in all of 
the States where we operate our paper mills. In fact, it might 
be interesting to understand that in nearly every instance when 
we load a truckload of paper, whether it is cut-size on pallets 
or in rolls, we leave perhaps six to eight feet of that trailer 
empty in the back because we have already gotten to the legal 
gross limit.
    The gentleman that was speaking earlier, there is a lot of 
inefficiency in the system today. Yes, people do need to load 
trucks more fully, but there are also a lot of lightweight 
commodities out there that are going to cube out before they 
weigh out.
    The paper industry is one industry that weighs out before 
it cubes out. We need to be able to drive productivity by 
loading these vehicles full.
    Mr. Michaud. My second question is I mentioned having 
loaded a lot of these trucks and knowing the six-axle versus 
the five-axle. We hear a lot about safety, and I am concerned 
about safety. That is why I think the weight limit in Maine 
should be increased because of safety reasons.
    If a truck was properly retrofitted, retrofitted from a 
five-axle to a six-axle, when you look at the stopping, when 
you look at the damage to the roads, can you comment on that?
    Mr. Carpenter. Yes, absolutely.
    Mr. Michaud. Is it safer if you retrofit?
    Mr. Carpenter. When you look at trucks carrying 97,000 
pounds in that three-axle configuration that we were talking 
about, the braking distance is almost exactly the same as a 
two-axle 80,000 pound truck.
    The point there is that a third axle not only distributes 
that weight more effectively. It also applies to the braking 
efficiency and gets that truck stopped just as quickly.
    Most of the statistics that you have heard today in 
expressing concerns around stopping distance are applied when 
you put 100,000 pounds or 97,000 pounds on that five-axle 
truck, and of course that truck is going to take longer to 
stop.
    Mr. Michaud. Thank you.
    Mr. Smid, could you talk more?
    You mentioned your association made a recommendation to 
allow States to authorize a six-axle and 97,000 pounds. Could 
you elaborate more on that?
    Mr. Smid. Yes. The six-axle and 97,000 pound application 
really applies to very much the areas we have discussed 
already. First of all, we are not in favor of increasing the 
weight without adjustments to the equipment and the equipment 
requirements.
    Secondly, the six-axle 97,000 pound configuration in 
particular and in specific regions that are more closely 
aligned with heavy, dense products, there was a number of 
discussions earlier regarding agriculture. There are a number 
of mining issues. There are a number of issues surrounding 
heavy metal type manufacturing and equipment manufacturing 
areas where that particular configuration would offer 
significant opportunity to become more efficient and spread 
that weight.
    It also begins to enforce a situation where the equipment 
is properly designed for some of the weights that may be 
carried. I have heard a lot of discussion about overweight 
units and the potential to overload a unit. As configurations 
of equipment change to accommodate the 97,000 pound weight 
when, in fact, a good percentage of equipment is only laden 
with 30,000 to 40,000 pounds, it does create more insurance and 
a more creative spreading of the weight on the highway system.
    Mr. Michaud. What about the costs on deterioration?
    I read somewhere that there was a study done. If you look 
at the cost of a six-axle 97,000 pound and use that same 
footprint on the road system with an 80,000 pound versus a 
five-axle, it is my understand that as far as on the road 
system, that it is not much difference as far as deterioration. 
Are you familiar with any study that has been done in that 
area?
    Mr. Smid. There are a number of studies. I am familiar with 
the fact that that study is based on actually increasing or 
decreasing the pounds per square foot or pounds per square inch 
that come from compression of the highway.
    I am also familiar with a study that begins to look at the 
impact of the longer combination vehicle on a bridge versus 
multiple vehicles and multiple power equipment in crossing that 
bridge.
    Both of those indicate some potential for favorable 
results.
    Mr. Michaud. Thank you.
    Thank you very much, Mr. Chairman.
    Mr. Oberstar. [Presiding.] Does the gentleman have any 
further questions? He is certainly welcome to continue.
    Mr. Michaud. No. My concern, Mr. Chairman, is making sure 
that we compare apples to apples.
    When you talk about safety issues, my big concern is, yes, 
you take that 80,000 pound vehicle with fix axles and don't do 
anything to retrofit it, yes, there is a safety concern. But if 
you retrofit it properly, then that takes care of the safety as 
well as when you look at the fact that is getting more 
vehicles, trucks off the road.
    With the increase in weight limit, you can get more trucks 
off the road. I have loaded many trucks that the back end, the 
way we distribute the load of paper, you can put a lot more on 
there. But you can't because of the weight limit in Maine. As 
you can see from the map that is up there, that donut hole so 
to speak, we are limited to what we can do.
    So I think that this important in that when we look at the 
overall policy on this, Mr. Chairman, I think we have to take 
everything into consideration because it is a convoluted 
system. It is a patchwork, and I am very concerned about the 
safety issue, having seen what is happening in Maine.
    I know every State is different. We heard earlier today 
from Ms. Richardson about what is happening in L.A. County 
which I visited last week, and I have seen the concerns that 
she might have over there. But we have to look at this in an 
area that we can solve some of the problems that we currently 
have out there.
    In Maine, we have lost over 23 percent of our manufacturing 
base alone with high diesel fuel. It is compounding that 
problem even more. We have to look at this in a comprehensive 
way.
    I really appreciate your time, Mr. Chairman. I know that 
you are concerned as well about the safety issues, and I look 
forward to working with you as we move forward in this area.
    It is not an easy area to really deal with and, as you well 
know, there is a lot of controversy out there. There is a lot 
emotion out there. I think we have to make sure that we look at 
the facts, and that is very important.
    Put aside the emotion. Look at the facts, what is really, 
and I look forward to working with you, Mr. Chairman.
    Mr. Oberstar. Thank you. The gentleman from Maine is a very 
thoughtful and very considerate Member of the Committee, and he 
devotes a great deal of time to our issues. I appreciate his 
participation.
    Mr. Carpenter, you and other advocates for heavier, longer 
combination vehicles say the shift----
    Mr. Carpenter. Mr. Oberstar, let me make sure that we 
understand one thing. ASET and International Paper are not 
advocating longer vehicles. We are advocating heavier vehicles 
with the third trailer axle in the current length 
configuration.
    Mr. Oberstar. Okay. I will amend my statement by limiting 
it to heavier vehicles.
    Mr. Carpenter. Thank you.
    Mr. Oberstar. There are other advocates for longer 
combination vehicles.
    Mr. Carpenter. Yes.
    Mr. Oberstar. They say that the shift in policy will result 
in fewer trucks on the roadway. How do we assure, how do you 
assure, what protections can there be put in place to ensure 
that there are fewer trucks as the result of such a shift?
    Mr. Carpenter. Well, in the context of economic growth, you 
really can't assure that.
    Assuming that we all agree that economic growth is a good 
thing, we do want the truck traffic to increase. What we want 
to do is make sure that that truck traffic increases safely and 
efficiently. The only way that we know that that can happen is 
by making trucks more efficient and safer.
    By doing that, you are going to stem the tide. Assuming 
economic growth continues, you are at least going to make sure 
that it is growing at a reasonable rate.
    If we don't make a change in this next reauthorization 
process, what you are going to be faced with is the same old 
rules that we have today that everybody agrees are not working. 
You are going to keep all the heavier trucks on the secondary 
roads which is clearly less safe.
    We have to make sure that we are doing the right things so 
that as the economy continues to grow, we are taking advantage 
of the productivity opportunities that every other 
industrialized country in the world is doing.
    Mr. Oberstar. Well, China has allowed weights of up to 
135,000 pounds on their roadways.
    They are building a rival to our interstate highway system. 
In 1988, China had a 168 miles of interstate caliber freeway, 
and today they have 22,500 miles. In 10 years, they will have 
55,000 miles.
    They have reduced the travel time for trucks from Beijing 
to Hong Kong from 55 hours to 31 hours. Nowhere in America have 
we made that kind of reduction in travel time.
    Mr. Carpenter. Right. I have been to Shanghai.
    Mr. Oberstar. Theirs is a new system, but they are building 
it. I have been on at least one 200-mile segment of their new 
interstate quality highway.
    But they are already realizing those heavier trucks are 
destroying their road surface, and they are moving in the 
direction of limiting and reducing weight at least. I didn't 
see as many combination vehicles there as I have in the United 
States.
    If your goal of having heavier trucks and those who 
advocate longer combination vehicles is that it will reduce the 
number of trucks, I suspect it is reducing the growth of 
trucks, but I would like to see some formula. I don't expect 
you to come up with it here, but I would like to see some 
formula by which you would abide and that could be enforced if 
there were such a move to heavier and longer vehicles.
    Mr. Carpenter. We could certainly do that, and it is really 
a function of two things: economic growth rates and then the 
adoption rates of six-axle truck configurations.
    Because those won't be adopted immediately by all trucking 
companies if that was authorized, that is not going to happen 
overnight. It is going to take a while for trucking companies 
to make those investments and try those vehicles.
    Mr. Oberstar. Mr. Smid, do you have a comment on that?
    Mr. Smid. Yes, I do. In reality--and I gave the example--
last year, we ran 35 million miles with longer combination 
vehicles. There were 20,000 times when 2 units got to the end 
of Interstate 80, or 3 units, they were combined into 2 units 
as LCVs and moved to destination.
    The result of that was 10 million fewer tractor or power 
unit miles or 10 million gallons, actually, of fuel that we 
saved and nearly 117,000 tons of carbon emissions that were 
reduced. So the natural reduction the minute you combine the 
unit really regulates it.
    Now the issue of how do you measure a latent piece of 
equipment, currently there are a number of measures that we go 
through with regard to our licensing, scaling and reporting 
that have to record those types of issues, including the ton 
mile tax that has become more prevalent in some areas.
    Mr. Oberstar. In the consideration of the current surface 
transportation law, we spent a good deal of time weighing the 
possibility of truck-only roadways. There was a proposal by our 
former Chairman, Mr. Young, on Interstate 80--you mentioned 
80--to have a truck-only lane.
    But it was to be a tolled facility, and the truckers really 
don't like tolls, and I don't like tolls. Tolls are not a 
system. They are a fix here and a fix there, but they are not 
an integrated system of financing, long-term, our surface 
transportation.
    In fact, I like to cite the very first toll. Well, the very 
first toll was imposed in India in 4000 B.C..
    But there was one proposal by one of King Edward III's 
knights to build a bridge over the Thames River for carriages, 
and he granted authority to that knight to build this bridge in 
1348 with the limitation that the toll should be removed when 
the cost therefore has been recovered. That toll was removed in 
1748 by Parliament.
    Once you put it on, they just don't like to come off. I am 
very skeptical about tolls.
    But some method of paying for that heavier weight vehicle, 
Mr. Carpenter, you alluded to a willingness. Mr. Smid, not 
quite so forthcoming on that subject.
    One of the options for financing the future of the surface 
transportation program would be, in addition to the Highway 
Trust Fund or as a substitute for the user fee, vehicle miles 
traveled to which I would add weight. What would be your 
reaction?
    Mr. Carpenter. Yes, I think it is fair to expect that a 
three-axle trailer that can carry up to 97,000 pounds would pay 
some sort of increased use fee. What that would look like in 
terms of licensing or fuel tax, you know there are lots of 
forms that Congress could use.
    The important point there is it could afford to pay that 
because of the additional revenue that that asset is going to 
generate as long as that tax or use fee doesn't completely 
offset the productivity that vehicle will generate.
    So, absolutely, we think that it is time to pay to play.
    Mr. Oberstar. Mr. Smid?
    Mr. Smid. Yes, Mr. Chairman. I think clearly there is an 
understanding that if there is a cost associated with change 
and assuming there is a benefit with the change, then that cost 
associated with it would have to be borne by the user.
    Mr. Oberstar. Mr. Spradley, ag interests have generally 
been in favor. As I said, they were the most significant of the 
14 separate requests we had for exemptions, for seasonal 
exemptions mostly for agricultural commodities.
    I found forest products' interests in Minnesota that said, 
we will pay more. They didn't say how much more, but they will 
pay more.
    What do you think?
    Mr. Spradling. Certainly, the American Farm Bureau is in a 
position and has had policies that certainly we would not 
necessarily want to increase the costs for agriculture 
producers.
    I really don't know how to answer that, Mr. Chairman, at 
this point.
    Mr. Oberstar. If the heavier vehicle exacts a toll on the 
road surface that results in earlier deterioration; if we build 
a roadway for 25 or 30 years and it deteriorates in 15, and one 
truck of 80,000 pounds rolling over a roadway exacts more 
deterioration from that than 9,600 passenger vehicles, somebody 
should pay for that incremental cost of earlier deterioration 
or for building a better roadway that will last longer.
    Mr. Spradling. All right. I understand your question a 
little better now. I thought maybe we were referring to the 
26,001 pounds from the 10,001.
    Mr. Oberstar. Oh, no, no. That is a separate issue. I still 
don't know how that came, but that is a commercial driver 
license issue and not a weight on the roadway issue.
    Mr. Spradling. Well, it is the weight on the roadway issue 
that turns it into a commercial driver's license.
    Mr. Oberstar. We are trying to figure out what the history 
was and how regulators came to that rather arbitrary weight 
delineation.
    But on agricultural exemptions for weights in excess of 
80,000 pounds, what do you think? You want to pass on that for 
the moment?
    Mr. Spradling. I would, sir. Thank you.
    Mr. Oberstar. All right. Well, you can submit in writing 
your thoughts.
    As a good conservative organization, the Farm Bureau ought 
to be willing to pay for any increased cost that heavier 
weights exact on the roadway.
    There is the weight to pavement effect, weight to bridge 
effect. I talked earlier about the bridge formula.
    The State of California has an interesting vehicle that 
they use in different parts of the State to exact effect on 
roadway of varying loads imposed on that road. It is a very 
interesting vehicle. I have seen it in operation.
    But there hasn't been really good data. I know the TRB 
study of six, seven years ago purported to say that heavier 
vehicles with more axles would distribute the weight better and 
have less effect on the road surface. I am not convinced.
    I have read the study. I have talked to the members of the 
panel. I am not convinced it was a very definitive analysis, 
but I want to move from that to the safety issue.
    Mr. Brezinsky, I thought you gave some very compelling and 
pertinent data about the stopping distance at 80,000 pounds at 
55 miles an hour. It is 335 feet from your testimony. At 65 
miles an hour, it is 525 feet.
    At 60 miles an hour, vehicle is traveling 88 feet per 
second. That is a pretty substantial wait to stop at that 
speed.
    As a driver, what gives you the greatest fear when you are 
out on the road at those speeds?
    Mr. Brezinsky. Somebody cutting me off, that I am going to 
hit them because it is really, really hard to stop these things 
when you are going.
    You know 60 miles an hour isn't that fast. Like I said, our 
trucks are governed at 62. So we are not going as fast as some 
of the other trucks that are out there.
    We have trucks that are out there that can do upwards of 75 
miles an hour, and they do it out there. Interstate 44 through 
Oklahoma and Missouri, they are up. The speed limits are 75 
miles an hour.
    West Texas, the speed limits are 75 miles an hour. Of 
course, west Texas, they want the trucks to only do 70. You 
know it is even a lot harder for them.
    But I would like to address this a little bit about the 
heavier trucks too. One thing they are not looking at and I do 
as a driver, and you will appreciate this, being from 
Minnesota, and the distinguished gentleman from Maine will 
appreciate that.
    For the inclement weather, you are traveling on ice, and 
you are traveling on snow. I realize you are going to reduce 
your speed down to 30 to 35 miles an hour, but you have a lot 
more inertia weight pushing you when you add another 17,000 
pounds to these things. They are hard enough to control now, 
and then you get into a combination vehicle.
    I mostly drive the doubles. Our company does drive the 
triples as Mr. Smid had said out in the higher west like 
Colorado and Idaho and places like that. You know it is really 
tough to control that last trailer when you got that extra 
weight on there. It really is, and it is scary.
    My whole thing is, when I look at this as an operator, my 
wife and my kids are out on these roads. So are yours and 
everybody else's. I don't want to hurt them.
    I am very self-conscious out there when I am operating 
these vehicles. That is why I have almost two million miles 
without an accident on the street.
    I have had one accident in our yard at 1.6 million miles, 
and that was because of an over-length vehicle. I tried to make 
the turn. I scraped one of the tractors in our yard, but as far 
as out on the street I have like 1.9 million miles without 
hitting anybody.
    Mr. Oberstar. We are going to have more trucks on the road 
if you can find drivers for them. I think both Yellow and Mr. 
Carpenter and Mr. Farrell in their respective domains will 
testify to the difficulty of getting more drivers.
    The freight rails don't have enough capacity to take 
trailers of the trucks and put them on the rails. They are 
trying to shift more of their container traffic to trucks. 
Trucks don't have the capacity to carry them.
    We are at a gridlock in this Country, and it is just going 
to continue costing more for delivery of goods in this Country 
if we don't resolve these problems.
    Now I don't want to see us get into a situation that 
Australia has. Have you seen video of the Australia truck 
trains?
    Six trailers, it would scare the hell out of me, frankly. I 
saw this thing. I wouldn't want to be anywhere near this thing 
on the roadway. I gather from this presentation I saw that is 
all that is allowed on those roads.
    Maybe somehow we have to build an alternative road system 
for trucks only and keep them, but eventually they have to get 
on the rest of the system.
    Captain Harrison, you have a comment.
    Mr. Harrison. I am glad you brought up the issue of safety 
to discuss that. One thing that enforcement wants to make sure 
that is taken into consideration is the safety of these 
vehicles, and we believe there needs to be more data analysis 
as far as that is concerned.
    We have asked. For example, we have asked the Motor Carrier 
Safety Administration for a data run to compare these 
statistics I cited earlier of the 13.7 percent violations, how 
those carriers that have been cited, how their safety record 
compares to other carriers, for example. Stopping distance is 
certainly a major issue.
    One of the most important things I want to get across is 
that we need to put the same emphasis on safety as far as size 
and weight goes as you currently are putting on infrastructure 
protection. Traditionally, size and weight programs were geared 
only toward infrastructure protection.
    We need to look hard at the safety aspect and do the 
necessary research and background checks to make sure as it 
carries the weight as far as the importance issue.
    Mr. Oberstar. I want to understand. Is the Vehicle Safety 
Alliance, is that your version in Georgia of a highway patrol?
    Mr. Harrison. No. The Commercial Vehicle Safety Alliance is 
an association of all the enforcement agencies within North 
America that do truck safety and truck size and weight.
    Mr. Oberstar. In Georgia, what is yours?
    Mr. Harrison. In Georgia, I work for the Department of 
Public Safety which includes the highway patrol and the size 
and weight people and the safety.
    Mr. Oberstar. It includes the highway patrol, but it is not 
the highway patrol itself.
    Mr. Harrison. It is the parent agency of the highway 
patrol.
    Mr. Oberstar. Okay. Good.
    Our Minnesota State Patrol, I visit with quite regularly. 
It was in 1982 on the eve of our legislation to reauthorize the 
surface transportation program. I had an evening session with a 
large number of Minnesota Highway Patrol officers.
    One came in about halfway through the meeting, and he said, 
I have just come from a tragic accident on the highway. He 
said, when you go back to Washington, I want you to advocate 
for that 55 mile an hour speed limit, which we were considering 
in Committee the next day, because it is at 80 miles an hour 
that we get the torn aortas and you can't put them together.
    That was a very powerful message. I told that story in this 
Committee room the next day.
    Chairman Jim Howard, whose portrait is of course in the 
next room, said: I have one opportunity in a career, and in 
this Committee, to save lives. At 55 miles an hour, we are 
going to save lives.
    And we moved that legislation in Committee.
    Now you are talking about 60, 62 miles an hour with 
electronic governors. What highway safety problems does the 
governor present for you if you suddenly need a burst of energy 
to get around a problem and you don't have it, if everybody 
else is traveling in excess of that speed or most others?
    Mr. Brezinsky. Yes, it is a problem. When you only have 62 
miles on a truck, you just kind of adjust your driving habits 
to what is going on with the traffic.
    So if it comes to a point where I am coming up on somebody 
that is going through, I would say like what you were talking 
with the man from Oklahoma about, about the agriculture people 
that are out there. Sometimes you get them because they are 
pulling with a pickup truck, and they might have a bunch of 
steer on there, and they are not going to go that fast.
    If somebody is coming by me, you just have to adjust. You 
have to slow down, so you don't have to gear up. But then you 
have to start gearing up again.
    In my particular run right now, I have 27 traffic lights 
and a whole bunch of towns I have to go through in a 200-mile 
stretch of Oklahoma. I have a lot of gearing up to do, and I am 
sure it is planned pretty good on the fuel mileage on that. If 
you got to slow up and you got to start up again, to pull a 
heavier load, you are going to use more fuel.
    It is going to take you more time to go there. We only have 
so many hours in the day that we are allowed to drive which is 
11. Now my particular run, I only have 432 miles. I can make it 
there in 8 to 8.5 hours.
    But you get in some of these other runs that are long, like 
when we used to run St. Louis. That was 622 miles, I believe 
that was. They only had 11 hours to get there. So, if you waste 
a lot of time getting through that, you are going to run out of 
time.
    You have to adjust with the traffic. See, our company 
trains us. Every three years, we have to go through what is 
called the Smith System, and I think it is one of the things 
that really helped me get through what I have been through so 
far.
    You just have to adjust with the traffic. You are 
constantly looking. You are constantly looking in front of you 
to see what is going on and constantly looking on the side of 
you to see what is going on.
    Another thing, trying to get geared up on these highways. 
You are at 70 miles an hour in Texas, and you are trying to get 
on a ramp. A lot of those ramps are smaller even though it is a 
newer highway system. To try to get geared up with extra weight 
or extra length to try to fit in as people are zooming by you, 
you know at 70 miles an hour they are going to do 80, 85 
because they always try to get away with an extra 10 miles an 
hour, and that is the way it is.
    My wife being originally from Long Island, I will tell you 
that story. The Long Island Expressway is still 55 miles an 
hour. I was just there last week.
    But they have a little thing out there. They say we are not 
going to increase the speed limit because you are going to go 
faster. So, if we have it at 55 and we give you 65, 70, we will 
still be okay. But it is still not good for a slow one to go 
up.
    Now we can operate them safely at 62 which is fine, but you 
just have to adjust a lot more to what is going on there for 
these higher speeds.
    Mr. Oberstar. Yes.
    Mr. Brezinsky. I did notice on those older ramps. I got to 
tell this. The friend that we visited for a wedding, we went 
down to Brooklyn to pick up a cake for his daughter, and I got 
to tell you, I can't see how I used to make those ramps with a 
48-footer when I drove up there.
    Mr. Oberstar. All those cloverleaf ramps, they were very 
attractive.
    Mr. Brezinsky. Yes, but they were short.
    Mr. Oberstar. They were very cute.
    Mr. Brezinsky. Yes.
    Mr. Oberstar. They were designed and built in the 50s and 
early 60s when the traffic moved much more slowly.
    Mr. Brezinsky. And to take a 53-footer there now, tough.
    Mr. Oberstar. You need these diamond interchanges.
    Mr. Donaldson, from the standpoint of the alliance that you 
speak for and for the many victims of car-truck crashes, your 
thoughts on the subject?
    Mr. Donaldson. On car-truck crashes?
    Mr. Oberstar. Yes, and speeds and longer combination 
vehicles and the problems that places for safety on the 
roadway.
    Mr. Donaldson. There is no question that conflicts occur 
between cars and trucks. Cars are usually the overwhelming 
majority of the vehicles on the road.
    There are a few facilities where trucks have reached 
numbers and percentage representation which is pretty 
astounding. I-81 down the spine of Virginia, if you travel 
that, one out of every two vehicles on the road now is a heavy 
truck. It is an interesting experience to be traveling down 
that road at 70 miles an hour and have a heavy truck in front 
of you, behind you and on either side of you.
    Trucks and cars can get along pretty well as long as you 
have the right kind of facility and you segregate the vehicles. 
Some jurisdictions, as you know, have dedicated trucks to 
certain types of lanes, particularly further right lanes. This 
allows more free-flowing traffic with cars.
    I do have to address an implication that has been around 
for years now that the great majority of crashes that occur out 
there between cars and trucks are somehow triggered by the car 
driver. That claim basically relies in one study by one 
gentleman who I have known for many years, and a few years ago 
he basically disavowed it in a public meeting and actually said 
he wished he had never written the paper.
    So the claim that 70 or 75 percent of all crashes out there 
are caused or triggered by a car driver's behavior is certainly 
not true. It has never been demonstrated. It is not to say that 
cars and trucks don't have very different behavior in a high-
speed traffic stream because they very often do, and the 
gentleman from Teamsters is aware of that.
    Longer combination vehicles, I think I indicated before 
that the problem with LCVs, Mr. Chairman, is the fact that we 
ended up with this crazy quilt even with the freeze out there, 
and that crazy quilt would have grown, and we would have more 
trucks out there on more lower class roads. We would have not 
have had a rationale scheme that would have controlled the use 
of LCVs.
    Indeed, I think the problem right now with what we have now 
in the offing again with 97,000 pounds, bigger trucks, heavier 
trucks out there--and some of the configurations will be 
bigger--is once again the same problem where we don't have any 
ability to rationally control how they are used and where they 
go because the platform on which they operate now is the 
grandfather rights, the permitting practices, the self-quoted 
interpretations of what the States believe they have the legal 
privilege to do.
    So we have no national uniformity at all not only in terms 
of safety but also in terms of infrastructure impacts. I can 
see that cycle repeating itself all over again.
    Mr. Oberstar. Yes. Well, that study referred to it.
    I do think, though, there is some merit in a refresher 
course for drivers when they go to renew their passenger 
vehicle driver's license. Just as truck drivers, Mr. Brezinsky 
said earlier, have to go through recurrent training, passenger 
vehicle drivers need to respect the truck on the roadway.
    I have seen far too many situations of a person darting out 
ahead and diving in front of the truck and then slowing down 
and then wondering why the truck is getting so close to them. 
The truck can't slow down that fast. If they are so much in a 
hurry, then they ought to leave enough space between themselves 
and the truck.
    There is shared responsibility in the highway safety issue.
    Now, as we move into the authorization next year, we have 
to balance weights on road surface, on bridges.
    We have 76,000 structurally deficient bridges in this 
Country. We have an equal number of functionally deficient 
bridges, a portfolio of 153,000 bridges in those two 
categories. Of that 76,000 structurally deficient, there are 
probably 2,600 to 2,700 that are critical bridges that need to 
be replaced. They are deteriorated beyond the ability to carry 
the designed load.
    The growing number of vehicles we are going to have on our 
highways, trucks, and the inability of the rail system to 
expand fast enough to take some of that load off the roadways--
it is going to be a big challenge for us to balance all these 
various requests.
    So I think those that are advocating for heavier weights, 
the burden is on you to prove that it is going to reduce the 
number of vehicles on the roadway. Those who are advocating for 
longer combination vehicles and for maintaining the exemptions, 
the burden is on those advocates to prove that it is not going 
to deteriorate safety.
    I am, frankly, in favor of removing those grandfather 
clauses, limiting our interstate and National Highway System to 
single vehicles, and other measures in the safety portion of 
our program to drive that 5,000 fatality number down, to take 
the 43,000 fatalities on our highways down, to take the 26 
million accidents a year down substantially. If the European 
community can do it, we can do it too.
    I recommend you all put your thinking caps on and give us 
your further thoughts on these issues that we have discussed at 
great length here today, and I thank you for your time and for 
your contributions.
    The Committee is adjourned.
    [Whereupon, at 1:47 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3580.012
    
    [GRAPHIC] [TIFF OMITTED] T3580.013
    
    [GRAPHIC] [TIFF OMITTED] T3580.014
    
    [GRAPHIC] [TIFF OMITTED] T3580.015
    
    [GRAPHIC] [TIFF OMITTED] T3580.016
    
    [GRAPHIC] [TIFF OMITTED] T3580.017
    
    [GRAPHIC] [TIFF OMITTED] T3580.018
    
    [GRAPHIC] [TIFF OMITTED] T3580.019
    
    [GRAPHIC] [TIFF OMITTED] T3580.020
    
    [GRAPHIC] [TIFF OMITTED] T3580.021
    
    [GRAPHIC] [TIFF OMITTED] T3580.022
    
    [GRAPHIC] [TIFF OMITTED] T3580.023
    
    [GRAPHIC] [TIFF OMITTED] T3580.024
    
    [GRAPHIC] [TIFF OMITTED] T3580.025
    
    [GRAPHIC] [TIFF OMITTED] T3580.026
    
    [GRAPHIC] [TIFF OMITTED] T3580.027
    
    [GRAPHIC] [TIFF OMITTED] T3580.028
    
    [GRAPHIC] [TIFF OMITTED] T3580.029
    
    [GRAPHIC] [TIFF OMITTED] T3580.030
    
    [GRAPHIC] [TIFF OMITTED] T3580.031
    
    [GRAPHIC] [TIFF OMITTED] T3580.032
    
    [GRAPHIC] [TIFF OMITTED] T3580.033
    
    [GRAPHIC] [TIFF OMITTED] T3580.034
    
    [GRAPHIC] [TIFF OMITTED] T3580.035
    
    [GRAPHIC] [TIFF OMITTED] T3580.036
    
    [GRAPHIC] [TIFF OMITTED] T3580.037
    
    [GRAPHIC] [TIFF OMITTED] T3580.038
    
    [GRAPHIC] [TIFF OMITTED] T3580.039
    
    [GRAPHIC] [TIFF OMITTED] T3580.040
    
    [GRAPHIC] [TIFF OMITTED] T3580.041
    
    [GRAPHIC] [TIFF OMITTED] T3580.042
    
    [GRAPHIC] [TIFF OMITTED] T3580.043
    
    [GRAPHIC] [TIFF OMITTED] T3580.044
    
    [GRAPHIC] [TIFF OMITTED] T3580.045
    
    [GRAPHIC] [TIFF OMITTED] T3580.046
    
    [GRAPHIC] [TIFF OMITTED] T3580.047
    
    [GRAPHIC] [TIFF OMITTED] T3580.048
    
    [GRAPHIC] [TIFF OMITTED] T3580.049
    
    [GRAPHIC] [TIFF OMITTED] T3580.050
    
    [GRAPHIC] [TIFF OMITTED] T3580.051
    
    [GRAPHIC] [TIFF OMITTED] T3580.052
    
    [GRAPHIC] [TIFF OMITTED] T3580.053
    
    [GRAPHIC] [TIFF OMITTED] T3580.054
    
    [GRAPHIC] [TIFF OMITTED] T3580.055
    
    [GRAPHIC] [TIFF OMITTED] T3580.056
    
    [GRAPHIC] [TIFF OMITTED] T3580.057
    
    [GRAPHIC] [TIFF OMITTED] T3580.058
    
    [GRAPHIC] [TIFF OMITTED] T3580.059
    
    [GRAPHIC] [TIFF OMITTED] T3580.060
    
    [GRAPHIC] [TIFF OMITTED] T3580.061
    
    [GRAPHIC] [TIFF OMITTED] T3580.062
    
    [GRAPHIC] [TIFF OMITTED] T3580.063
    
    [GRAPHIC] [TIFF OMITTED] T3580.064
    
    [GRAPHIC] [TIFF OMITTED] T3580.065
    
    [GRAPHIC] [TIFF OMITTED] T3580.066
    
    [GRAPHIC] [TIFF OMITTED] T3580.067
    
    [GRAPHIC] [TIFF OMITTED] T3580.068
    
    [GRAPHIC] [TIFF OMITTED] T3580.069
    
    [GRAPHIC] [TIFF OMITTED] T3580.070
    
    [GRAPHIC] [TIFF OMITTED] T3580.071
    
    [GRAPHIC] [TIFF OMITTED] T3580.072
    
    [GRAPHIC] [TIFF OMITTED] T3580.073
    
    [GRAPHIC] [TIFF OMITTED] T3580.074
    
    [GRAPHIC] [TIFF OMITTED] T3580.075
    
    [GRAPHIC] [TIFF OMITTED] T3580.076
    
    [GRAPHIC] [TIFF OMITTED] T3580.077
    
    [GRAPHIC] [TIFF OMITTED] T3580.078
    
    [GRAPHIC] [TIFF OMITTED] T3580.079
    
    [GRAPHIC] [TIFF OMITTED] T3580.080
    
    [GRAPHIC] [TIFF OMITTED] T3580.081
    
    [GRAPHIC] [TIFF OMITTED] T3580.082
    
    [GRAPHIC] [TIFF OMITTED] T3580.083
    
    [GRAPHIC] [TIFF OMITTED] T3580.084
    
    [GRAPHIC] [TIFF OMITTED] T3580.085
    
    [GRAPHIC] [TIFF OMITTED] T3580.086
    
    [GRAPHIC] [TIFF OMITTED] T3580.087
    
    [GRAPHIC] [TIFF OMITTED] T3580.088
    
    [GRAPHIC] [TIFF OMITTED] T3580.089
    
    [GRAPHIC] [TIFF OMITTED] T3580.090
    
    [GRAPHIC] [TIFF OMITTED] T3580.091
    
    [GRAPHIC] [TIFF OMITTED] T3580.092
    
    [GRAPHIC] [TIFF OMITTED] T3580.093
    
    [GRAPHIC] [TIFF OMITTED] T3580.094
    
    [GRAPHIC] [TIFF OMITTED] T3580.095
    
    [GRAPHIC] [TIFF OMITTED] T3580.096
    
    [GRAPHIC] [TIFF OMITTED] T3580.097
    
    [GRAPHIC] [TIFF OMITTED] T3580.098
    
    [GRAPHIC] [TIFF OMITTED] T3580.099
    
    [GRAPHIC] [TIFF OMITTED] T3580.100
    
    [GRAPHIC] [TIFF OMITTED] T3580.101
    
    [GRAPHIC] [TIFF OMITTED] T3580.102
    
    [GRAPHIC] [TIFF OMITTED] T3580.103
    
    [GRAPHIC] [TIFF OMITTED] T3580.104
    
    [GRAPHIC] [TIFF OMITTED] T3580.105
    
    [GRAPHIC] [TIFF OMITTED] T3580.106
    
    [GRAPHIC] [TIFF OMITTED] T3580.107
    
    [GRAPHIC] [TIFF OMITTED] T3580.108
    
    [GRAPHIC] [TIFF OMITTED] T3580.109
    
    [GRAPHIC] [TIFF OMITTED] T3580.110
    
    [GRAPHIC] [TIFF OMITTED] T3580.111
    
    [GRAPHIC] [TIFF OMITTED] T3580.112
    
    [GRAPHIC] [TIFF OMITTED] T3580.113
    
    [GRAPHIC] [TIFF OMITTED] T3580.114
    
    [GRAPHIC] [TIFF OMITTED] T3580.115
    
    [GRAPHIC] [TIFF OMITTED] T3580.116
    
    [GRAPHIC] [TIFF OMITTED] T3580.117
    
    [GRAPHIC] [TIFF OMITTED] T3580.118
    
    [GRAPHIC] [TIFF OMITTED] T3580.119
    
    [GRAPHIC] [TIFF OMITTED] T3580.120
    
    [GRAPHIC] [TIFF OMITTED] T3580.121
    
    [GRAPHIC] [TIFF OMITTED] T3580.122
    
    [GRAPHIC] [TIFF OMITTED] T3580.123
    
    [GRAPHIC] [TIFF OMITTED] T3580.124
    
    [GRAPHIC] [TIFF OMITTED] T3580.125
    
    [GRAPHIC] [TIFF OMITTED] T3580.126
    
    [GRAPHIC] [TIFF OMITTED] T3580.127
    
    [GRAPHIC] [TIFF OMITTED] T3580.128
    
    [GRAPHIC] [TIFF OMITTED] T3580.129
    
    [GRAPHIC] [TIFF OMITTED] T3580.130
    
    [GRAPHIC] [TIFF OMITTED] T3580.131
    
    [GRAPHIC] [TIFF OMITTED] T3580.132
    
    [GRAPHIC] [TIFF OMITTED] T3580.133
    
    [GRAPHIC] [TIFF OMITTED] T3580.134
    
    [GRAPHIC] [TIFF OMITTED] T3580.135
    
    [GRAPHIC] [TIFF OMITTED] T3580.136
    
    [GRAPHIC] [TIFF OMITTED] T3580.137
    
    [GRAPHIC] [TIFF OMITTED] T3580.138
    
    [GRAPHIC] [TIFF OMITTED] T3580.139
    
    [GRAPHIC] [TIFF OMITTED] T3580.140
    
    [GRAPHIC] [TIFF OMITTED] T3580.141
    
    [GRAPHIC] [TIFF OMITTED] T3580.142
    
    [GRAPHIC] [TIFF OMITTED] T3580.143
    
    [GRAPHIC] [TIFF OMITTED] T3580.144
    
    [GRAPHIC] [TIFF OMITTED] T3580.145
    
    [GRAPHIC] [TIFF OMITTED] T3580.146
    
    [GRAPHIC] [TIFF OMITTED] T3580.147
    
    [GRAPHIC] [TIFF OMITTED] T3580.148
    
    [GRAPHIC] [TIFF OMITTED] T3580.149
    
    [GRAPHIC] [TIFF OMITTED] T3580.150
    
    [GRAPHIC] [TIFF OMITTED] T3580.151
    
    [GRAPHIC] [TIFF OMITTED] T3580.152
    
    [GRAPHIC] [TIFF OMITTED] T3580.153
    
    [GRAPHIC] [TIFF OMITTED] T3580.154
    
    [GRAPHIC] [TIFF OMITTED] T3580.155
    
    [GRAPHIC] [TIFF OMITTED] T3580.156
    
    [GRAPHIC] [TIFF OMITTED] T3580.157
    
    [GRAPHIC] [TIFF OMITTED] T3580.158
    
    [GRAPHIC] [TIFF OMITTED] T3580.159
    
    [GRAPHIC] [TIFF OMITTED] T3580.160
    
    [GRAPHIC] [TIFF OMITTED] T3580.161
    
    [GRAPHIC] [TIFF OMITTED] T3580.162
    
    [GRAPHIC] [TIFF OMITTED] T3580.163
    
    [GRAPHIC] [TIFF OMITTED] T3580.164
    
    [GRAPHIC] [TIFF OMITTED] T3580.165
    
    [GRAPHIC] [TIFF OMITTED] T3580.166
    
    [GRAPHIC] [TIFF OMITTED] T3580.167
    
    [GRAPHIC] [TIFF OMITTED] T3580.168
    
    [GRAPHIC] [TIFF OMITTED] T3580.169
    
    [GRAPHIC] [TIFF OMITTED] T3580.170
    
    [GRAPHIC] [TIFF OMITTED] T3580.171
    
    [GRAPHIC] [TIFF OMITTED] T3580.172
    
    [GRAPHIC] [TIFF OMITTED] T3580.173
    
    [GRAPHIC] [TIFF OMITTED] T3580.174
    
    [GRAPHIC] [TIFF OMITTED] T3580.175
    
    [GRAPHIC] [TIFF OMITTED] T3580.176
    
    [GRAPHIC] [TIFF OMITTED] T3580.177
    
    [GRAPHIC] [TIFF OMITTED] T3580.178
    
    [GRAPHIC] [TIFF OMITTED] T3580.179
    
    [GRAPHIC] [TIFF OMITTED] T3580.180
    
    [GRAPHIC] [TIFF OMITTED] T3580.181
    
    [GRAPHIC] [TIFF OMITTED] T3580.182
    
    [GRAPHIC] [TIFF OMITTED] T3580.183
    
    [GRAPHIC] [TIFF OMITTED] T3580.184
    
    [GRAPHIC] [TIFF OMITTED] T3580.185
    
    [GRAPHIC] [TIFF OMITTED] T3580.186
    
    [GRAPHIC] [TIFF OMITTED] T3580.187
    
    [GRAPHIC] [TIFF OMITTED] T3580.188
    
    [GRAPHIC] [TIFF OMITTED] T3580.189
    
    [GRAPHIC] [TIFF OMITTED] T3580.190
    
    [GRAPHIC] [TIFF OMITTED] T3580.191
    
    [GRAPHIC] [TIFF OMITTED] T3580.192
    
    [GRAPHIC] [TIFF OMITTED] T3580.193
    
    [GRAPHIC] [TIFF OMITTED] T3580.194
    
    [GRAPHIC] [TIFF OMITTED] T3580.195
    
    [GRAPHIC] [TIFF OMITTED] T3580.196
    
    [GRAPHIC] [TIFF OMITTED] T3580.197
    
    [GRAPHIC] [TIFF OMITTED] T3580.198
    
    [GRAPHIC] [TIFF OMITTED] T3580.199
    
    [GRAPHIC] [TIFF OMITTED] T3580.200
    
    [GRAPHIC] [TIFF OMITTED] T3580.201
    
    [GRAPHIC] [TIFF OMITTED] T3580.202
    
    [GRAPHIC] [TIFF OMITTED] T3580.203
    
    [GRAPHIC] [TIFF OMITTED] T3580.204
    
    [GRAPHIC] [TIFF OMITTED] T3580.205
    
    [GRAPHIC] [TIFF OMITTED] T3580.206
    
    [GRAPHIC] [TIFF OMITTED] T3580.207
    
    [GRAPHIC] [TIFF OMITTED] T3580.208
    
    [GRAPHIC] [TIFF OMITTED] T3580.209
    
    [GRAPHIC] [TIFF OMITTED] T3580.210
    
    [GRAPHIC] [TIFF OMITTED] T3580.211
    
    [GRAPHIC] [TIFF OMITTED] T3580.212
    
    [GRAPHIC] [TIFF OMITTED] T3580.213
    
    [GRAPHIC] [TIFF OMITTED] T3580.214
    
    [GRAPHIC] [TIFF OMITTED] T3580.215
    
    [GRAPHIC] [TIFF OMITTED] T3580.216
    
    [GRAPHIC] [TIFF OMITTED] T3580.217
    
    [GRAPHIC] [TIFF OMITTED] T3580.218
    
    [GRAPHIC] [TIFF OMITTED] T3580.219
    
    [GRAPHIC] [TIFF OMITTED] T3580.220
    
    [GRAPHIC] [TIFF OMITTED] T3580.221
    
    [GRAPHIC] [TIFF OMITTED] T3580.222
    
    [GRAPHIC] [TIFF OMITTED] T3580.223
    
    [GRAPHIC] [TIFF OMITTED] T3580.224
    
    [GRAPHIC] [TIFF OMITTED] T3580.225
    
    [GRAPHIC] [TIFF OMITTED] T3580.226
    
    [GRAPHIC] [TIFF OMITTED] T3580.227
    
    [GRAPHIC] [TIFF OMITTED] T3580.228
    
    [GRAPHIC] [TIFF OMITTED] T3580.229
    
    [GRAPHIC] [TIFF OMITTED] T3580.230
    
    [GRAPHIC] [TIFF OMITTED] T3580.231
    
    [GRAPHIC] [TIFF OMITTED] T3580.232
    
    [GRAPHIC] [TIFF OMITTED] T3580.233
    
    [GRAPHIC] [TIFF OMITTED] T3580.234
    
                                    

</pre></body></html>
